APPENDIX TABLE OF CONTENTS
APPENDIX A
New York Opinions and Orders...................... la
Opinion of the New York Appellate Division,
First Department ( November 12, 2019).......... 2a
APPENDIX B
Order from Administrative Judge Denying
Correction of Doctored Transcripts........ 4a
Decision and Order of the Supreme Court of
New York (June 11, 2019).... ......... ..................... 5a
APPENDIX C
Order of Refusal of Justice Friedman to
Recuse Herself Despite Her Bias and
Discrimination Against the Plaintiffs........ 8a
Decision and Order of the Supreme Court of
New York, County of New York, Commercial
Division Part 60 (December 6, 2018)................. 9a
APPENDIX D
Order of Refusal by Justice Friedman for
Plaintiffs to Amend Their Complaint.........13a
Order of Supreme Court of New York County
(May 15, 2018)
14a
APPENDIX E
Preliminary
Injunction
Prohibiting
Dilution of the Plaintiffs.............................. 15a
Order on Preliminary Injunction, Supreme
Court of New York, New York County
(March 2, 2017)..................................................... 16a

APPENDIX TABLE OF CONTENTS (Cont.)
APPENDIX F
Motion to Fix Doctored Transcripts to
Administrative Judge.................................... 18a
Plaintiffs’ Motion for Correction of the
Erroneous, Heavily Doctored and Faulty—
Transcript of March 12, 2019 (May 8, 2019)... 19a
APPENDIX G
List of Depositions Items Requested by
Plaintiffs and Refused by Justice
Friedman.......................................................... 23a
Buhannic v. TradingScreen:
Depositions Request......................................... 24a
APPENDIX H
Requests for Discovery and Inspection
Never Even Answered................................... 26a
Plaintiffs’ Fourth Request for Discovery and
Inspection (February 19, 2018)........................ 27a
APPENDIX I
Manipulation of Social Medias
by Defendants.............................

58a

Manipulation of Social Medias ....

59a

APPENDIX J
Proof of Manipulation of Discovery by
Defendants..................................................... 63a
Proof That the Defendants Have Hidden Most
of the Communications in Breach of Discovery
Rules.................................................................. 64a

APPENDIX TABLE OF CONTENTS (Cont.)
APPENDIX J
Multiple Requests for Discovery in Court
with No Effect............................................... 67a
Plaintiffs’ Third Request for Discovery and
Inspection (November 7, 2017)........................ 68a
Plaintiffs’ Second Request for Discovery and
Inspection (June 27, 2017)............................... 71a
APPENDIX K
Transcripts Heavily Doctored by Justice
Friedman in a Clear and Recorded Case on
Adeolu Sunday.............................................. . 74a
Transcript of the Adeolu Sunday Incident
Before Doctoring............................................... 75a
Transcript of the Adeolu Sunday Incident
Before Doctoring Clear Destruction of Evidence
by a Judge......................................................... 78a
APPENDIX L
Motion to Correct Transcripts Heavily
Doctored by Justice Friedman on March
12, 2019.............................................................. 80a
Plaintiffs’ Motion for Correction of the
Erroneous, Heavily Doctored and Faulty Trans­
cript of March 12, 2019 (January 10, 2018).... 81a
Transcript Doctored Twice, with No Statement
Originally, Then Re-Including My Statement
After Warning to Justice Friedman by the
88a
Administrative Judge (March 19, 2019)
APPENDIX M
Proof of Morris Nicholls Lawyers of the

APPENDIX TABLE OF CONTENTS (Cont.)
Plaintiffs Attacking Them While Being
Their Lawyer
101a
Proof that Ken Nachbar from Morris Nicholls
and David Poliak from Morgan Lewis Were
Attacking Mr. Buhannic They Were His
102a
Lawyers
APPENDIX N
OTSC on Manipulation of Discovery by the
Defendants
110a
Affidavit of Merit In Support of Order to Show
Cause (April 23, 2018)
111a

App.la

APPENDIX A
New York Opinions and Orders

App.2a

OPINION OF THE NEW YORK APPELLATE
DIVISION, FIRST DEPARTMENT
(NOVEMBER 12, 2019)
NEW YORK APPELLATE DIVISION,
FIRST DEPARTMENT
PHILIPPE BUHANNIC, ET AL.,
Plaintiffs-Appellants,
v.
TRADINGSCREEN, INC., ET AL.,
Defen dan ts-Respon den ts.
Case No. 653624/16-7543
2019 NY Slip Op 08159
On Appeal from the Supreme Court,
New York County (Marcy S. Friedman, J.)
entered June 8, 2018
Appeal from order, Supreme Court, New York
County (Marcy S. Friedman, J.), entered June 8, 2018,
which denied plaintiffs’ motion to release the bond
securing a preliminary injunction, denied plaintiffs’
motion to compel discovery, denied plaintiffs’ motion
seeking leave to serve a proposed second amended
complaint, denied plaintiffs motion seeking an expe­
dited hearing, an enlargement of the March 2, 2017
preliminary injunction, and a declaration of contempt,
and ruled that the court would grant defendants’

App.3a
motion to seal at an unspecified time in the future,
dismissed, without costs as moot.
This action was dismissed with prejudice by order
entered on or about September 18, 2019, rendering
this appeal moot (see Matter ofAnonymous v New York
City Health & Hosps. Corp., 70 NY2d 972 [1988]).
M-7543 Philippe Buhannic v Tradingscreen, Inc.
Motion to dismiss appeal denied as academic.
THIS CONSTITUTES THE DECISION AND ORDER
OF THE SUPREME COURT, APPELLATE DIVI­
SION, FIRST DEPARTMENT.
ENTERED: NOVEMBER 12, 2019
CLERK

§■

*

App.4a

APPENDIX B
Order from Administrative Judge Denying
Correction of Doctored Transcripts

\

App.5a
DECISION AND ORDER OF THE
SUPREME COURT OF NEW YORK
(JUNE 11, 2019)
SUPREME COURT OF THE
STATE OF NEW YORK, NEW YORK COUNTY
PHILIPPE BUHANNIC, PATRICK BUHANNIC,
Plaintiffs,
v.
TRADINGSCREEN INC., PIERRE SCHROEDER,
PIERO GRANDI, FRANK PLACENTI,
ROBERT TRUDEAU, TCV VI. L.P.,
TCV MEMBER FUND, L.P.,
Defendants.
Part IAS Motion 20
Index No. 653624/2016
Motion Seq. No. 023
Before: Hon. Deborah A. KAPLAN, J.S.C.,
Administrative Judge.
The following e-filed documents, listed by NYSCEF
document number (Motion 023) 558, 563, 564, 565, 570
were read on this motion to/for RELEASE RECORDS.
In this action, which is pending in the Commercial
Division of this court before the Honorable Marcy S.
Friedman, plaintiffs move, among other things, for an

App.6a
order “eras[ing] the faulty transcript from the record
and organizing] a retyping based on the tape of what
really happened” as well as making certain instructions
to Justice Friedman. Defendants oppose.
Initially, since plaintiffs’ motion was addressed to
the “Administrative Judge,” Justice Friedman referred
the motion to the undersigned Justice by order dated
June 5, 2019.
It is well settled that an Administrative Judge is
not permitted to “supersede, overrule, control, or aid a
Trial Judge in carrying out [her] adjudicative respon­
sibilities. Delegation of administrative powers to a
Judge is limited and does not increase the judicial
power or authority of such Administrative Judge as to
give [her] authority to overrule decisions made by
other Judges in cases properly assigned to them, or to
make the decisions for such other Judges” (Balogh v.
H.R.B. Caterers, Inc., 88 AD2d 136, 143-144 [2d Dept
1982]; see generally NY Const., art. VI, § 28; Judiciary
Law § 212 [listing the responsibilities deemed to be
“administrative” in nature] Rules of the Chief Judge
[22 NYCRR] § 1.1).
The instant application is faulty, because it is
addressed to the Administrative Judge of this court.
This action is currently assigned to Justice Friedman,
and all adjudicative determinations, including whether
to permit amendments to transcripts of any proceedings,
are hers alone to make. To the extent that plaintiffs
are aggrieved by any such determination, their remedy
is either a motion to reargue or an appeal.
The court further observes that plaintiff Philippe
Buhannic, throughout his papers, refers to Justice
Friedman in a manner that is disparaging and improper,

App.7a

using derogatory appellations such as “Injustice Fried­
man”, or making unsupported accusations of judicial
misconduct. The court certainly has the power to punish
conduct “directly tending to interrupt its proceedings,
or ... impair the respect due to its authority” (Judiciary
Law § 750[A][l]; see Matter of Clark Jr. v Zwack, 40
AD3d 1224 (3d Dept. 2007]). The plaintiff is cautioned
that should his conduct continue, he may be adjudged
in contempt of court and appropriately punished. He
may also be subject to sanctions under other applicable
rules of the court.
Accordingly, it is hereby
ORDERED that the branches of the motion
requesting a conference with the undersigned Justice,
as well as an order making certain instructions to
Justice Friedman, are denied; and it is further
ORDERED that the branch of the motion request­
ing an order amending a transcript of proceedings in
this action is denied without prejudice and with leave
to renew before the Justice of this court to whom this
case is assigned, within 30 days from service of a copy
of this order with notice of entry.
Isl Deborah A. Kaplan, J.S.C.
Administrative Judge

Date: 6/11/2019

App.8a

APPENDIX C
Order of Refusal of Justice Friedman to Recuse
Herself Despite Her Bias and Discrimination
Against the Plaintiffs

App.9a
DECISION AND ORDER OF THE SUPREME
COURT OF NEW YORK, COUNTY OF NEW YORK,
COMMERCIAL DIVISION PART 60
(DECEMBER 6, 2018)
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
COMMERCIAL DIVISION PART 60
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index No. 653624/2016
Motion Seq. No. 020
Before: Hon. Marcy S. FRIEDMAN, J.S.C.
HON. MARCY S. FRIEDMAN:
The following e-filed documents, listed by NYSCEF
document number (Motion Seq. No. 020) 445, 446, 447,
448, 449, 450, 451, 452, 453, 454, 455, 456, 457, 458,
460, 461, 462, 463, 464, 465, 466, 467, 468, 469, 474,
477 were read on motion to/for Recusal 12/06/2018.

App.lOa

Plaintiff Philippe Buhannic, proceeding prose,
moves for this court’s recusal in this action. As a
threshold matter, the court declines to grant Mr.
Buhannic’s request to refer this motion to the Admin­
istrative Judge for determination. It is well settled
that, where, as here, grounds for recusal under Judiciary
Law § 14 are not at issue, “a Trial Judge is the sole
arbiter of recusal,” {See People v. Moreno, 70 NY2d
403, 405 [1987].)
Mr. Buhannic seeks recusal on the ground that
the court has demonstrated bias against him based on
national origin (i.e., because he is a French national)
and based on his prose status. 1 He also seeks recusal
based on the court’s alleged alteration (“forging”)
of transcripts and alleged ex parte communications
regarding the credentials of a paralegal whom he had
employed.
It is axiomatic that “[t]he right to an impartial
jurist is a basic requirement of due process.” {People
v. Novak, 30 NY3d 222, 225 [2017] [internal quotation
marks and citation omitted].) The Code of Judicial
Conduct, section 100.3 (E) (l), provides that “[a] judge
shall disqualify himself or herself in a proceeding in
which the judge’s impartiality might reasonably be
questioned, including but not limited to instances
where: (a) (l) the judge has a personal bias or prejudice
concerning a party.”
Mr. Buhannic does not point to any ruling or any
evidence in the record that provides any support
whatsoever for his claim of bias or his other assertions
of wrongdoing. {See generally R & R Capital LLC v.
1 Prior to representing himself, Mr! Buhannic was represented in
this action by four separate counsel, including well known law firms.

App.lla

Merritt, 56 Ad3d 370, 370 [1st Dept 2008]; Solow v.
Wellner, 157 AD2d 459, 459 [1st Dept 1990].) On the
contrary, the frivolous nature of the assertions of bias
and other wrongdoing is apparent on the face of those
assertions, and is confirmed by review of the record.
(See e.g., Mar. 5, 2018 Tr., at 6 [cited by Mr. Buhannic
as support for alleged bias]; Buhannic v. Friedman,
US Dist. Ct., SDNY, 18 CV 5729, Abrams, J„ Doc No,
15 [Memo. In Supp. of Motion to Dismiss discussing,
among other allegations, alleged alteration of trans­
cripts]; Letter of John M. Vassos [Defs.’ Counsel], dated
Nov. 20, 2017, to the court, copied to Mr. Buhannic’s
outgoing counsel at Shiboleth LLP and Patrick and
Philippe Buhannic [NYSCEF Doc No 277] [summarizing
Philippe Buhannic’s email to defendants’ counsel
regarding services to be performed by Mr. Buhannic’s
paralegal].)
Although Mr. Buhannic denies that the recusal
motion is based on his objections to the court’s rulings,
he has repeatedly objected to the court’s decision,
dated December 12, 2017, denying him indemnification
for his attorney’s fees in this action and certain other
matters, with a possible limited exception. He has also
objected to certain of the court’s rulings regarding
discovery and to procedural rulings affecting the
management of the proceedings, including stays or
adjournments necessitated by his repeated discharge
of attorneys. A litigant’s dissatisfaction with a court’s
rulings obviously cannot support a request for recusal.
It is also well settled that a judge has no legal or
ethical obligation to recuse merely because a litigant
sues or threatens to sue the judge. (Matter of New
York State Assn, ofCriminal Defense Lawyers [v. Kaye],
95 NY2d 556, 561 [2000]; Judicial Ethics Opinions 16-

App.l2a

106 [Oct 7, 2016], 13-4] [Apr. 25, 2013], 98-69 [June
19, 1998].) Rather, “[a] judge has an obligation not to
recuse himself or herself, even if sued in connection
with his or her duties, unless he or she is satisfied that
he or she is unable to serve with complete impartiality,
in fact or appearance. A litigant cannot be allowed to
create a sham controversy by suing a judge without
justification, and to then use that sham as a means for
achieving the judge’s recusal.” (Supremo v. Babchik,
155 Misc. 2d 796, 799 [Sup Ct, Queens County 1992],
mod on other grounds 216 AD2d 382 [2d Dept 1995],
lv denied 86 NY2d 709 [1995], cert denied 516 US
1161 [1996]; Judicial Ethics Opinions, supra)
As indicated above, Mr. Buhannic has brought an
action against this court in federal court, asserting
bias and wrongdoing substantially similar to that at
issue here. (Buhannic v. Friedman, supra [motion to
dismiss pending] ,)2 This court is satisfied that it can
continue to serve, as it has done in the past, with
complete impartiality, in both fact and appearance.
It is accordingly hereby ORDERED that plaintiff
Philippe Buhannic’s motion for recusal is denied in its
entirety.
Is/ Marcv S. Friedman
J.S.C.

Date: 12-6-18

2 Mr. Buhannic has filed numerous actions in federal court related
to his termination and his ownership interest in TradingScreen,
Inc., including an action against arbitrators following an adverse
decision.

App.l3a

APPENDIX D
Order of Refusal by Justice Friedman for
Plaintiffs to Amend Their Complaint

App.l4a

ORDER OF SUPREME COURT
OF NEW YORK COUNTY
(MAY 15, 2018)
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY PART 60
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Plaintiffs,
v.
TRADINGSCREEN INC. ET AL„
Defendants.
Index Number: 653624/2016
Motion Seq. No. 013
Before: Hon. Marcy S. FRIEDMAN, Justice.
Upon the foregoing papers, it is ORDERED that
plaintiffs’ motion seeking leave to serve a proposed
second amended complaint is determined pursuant to
this court’s decision on the record on May 15, 2018, the
transcript of which was so-ordered on today’s date is
denied.
Isl Marcv S. Friedman
J.S.C
Date: 6-7-18

App.l5a

APPENDIX E
Preliminary Injunction Prohibiting
Dilution of the Plaintiffs

App.l6a
ORDER ON PRELIMINARY INJUNCTION,
SUPREME COURT OF NEW YORK,
NEW YORK COUNTY
(MARCH 2, 2017)
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY
PHILIPPE BUHANNIC and PATRICK BUHANNIC
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC. ET AL„
Defendants.
Part 60
Index Number: 653624/2016
Motion Seq. No. 004
Before: Hon. Marcy S. FRIEDMAN, Justice.
Pursuant to this Court’s Decision on the Record
on February 7, 2017, SO ORDERED by this Court on
March 1, 2017, it is
ORDERED that defendants, their agents, servants,
employees and all other persons acting under the
jurisdiction, supervision and/or direction of defendants,
are enjoined and restrained, during the pendency of

App.l7a
this action, from doing or suffering to be done, directly
or through any attorney, agent, servant, employee or
other person under the supervision or control of
defendants or otherwise, any corporate action, whether
by the issuance, divestiture, forfeiture, cancellation,
redemption or repurchase of shares, or otherwise, that
would defeat or nullify plaintiffs’ asserted majority
shareholder status in TradingScreen Inc.; and it is
further
ORDERED that the undertaking is fixed in the sum
of seventy-five thousand dollars ($75,000) conditioned
that the plaintiffs, if it is finally determined that they
were not entitled to an injunction, will pay to the
defendants all damages and costs which may be
sustained by reason of this injunction.
/s/ Marcv S. Friedman
J.S.C.
Dated: 3-2-17

App.l8a

APPENDIX F
Motion to Fix Doctored Transcripts to
Administrative Judge

App.l9a
PLAINTIFFS’ MOTION FOR CORRECTION OF
THE ERRONEOUS, HEAVILY DOCTORED AND
FAULTY—TRANSCRIPT OF MARCH 12, 2019
(MAY 8, 2019)
SUPREME COURT OF THE
STATE OF NEW YORK, COUNTY OF NEW YORK
PHILIPPE BUHANNIC,
Plaintiff,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index Number: 653624/2016
PLEASE TAKE NOTICE that, upon the annexed
affirmation of Philippe Buhannic dated April 9, 2019,
the exhibits attached thereto, the accompanying memo­
randum of law, and any other papers, pleadings and
proceedings in this action, Plaintiffs will move the
administrative Judge of the Supreme Court at the
Courthouse located at 60 Centre Street, New York,
New York 10013, on May 22, 2019, at 9:30 a.m., or as
soon thereafter as counsel can be heard, Motion Sub­
mission Part, Room 130, to issue an Order, granting the
following reliefs to the movant:

App.20a
1. Organize if necessary a conference on the 22nd
at 9:30 or move directly to the motion as it is easy to
resolve and save time of court by having the admin­
istrative judge review it directly.
2. Entering an Order to erase the faulty transcript
from the record and organize a retyping based on the
tape of what really happened that day and the creation
of a corrected transcript. If the tape on instruction of
Injustice Friedman has been destroyed an investigation
has to be started and a disciplinary measure taken by
the administrative judge for destruction of evidence.
3. Establish a clear instruction to Injustice Fried­
man to stop doctoring transcripts, as she has done
systematically in the past and we can prove it, to feed
her collusion with the Defendants and to launch an
investigation on this collusion and the financial or
non-financial links between Injustice Friedman and
the Defendants lawyers as well as the unacceptable
ex-parte communication maintained by injustice Fried­
man during this proceeding, in clear breach of judges
rules that has taken place in our case.
PLEASE TAKE FURTHER NOTICE, that pursu­
ant to CPLR 2214(b), answering papers to this motion,
if any, must be served no later than seven (7) days
prior to the return date that pursuant to of this
motion, and reply papers shall be served at least one
(l) day prior to the return date of this motion.
Dated: Verbier, Switzerland
May 8, 2019

App.21a
By: /s/ Philippe Buhannic
Aventura 318
Route des Creux ,100
1936 Verbier
Switzerland
917-716-3542
To:

Peter C. Neger, Esq.
Laurie E. Foster, Esq.
Morgan, Lewis, & Bockius LLP
101 Park Avenue
New York, NY 10178
Stephen A. Radin, Esq.
Evert J. Christensen, Jr., Esq.
Weil Gotshal, &• Manges LLP
67 Fifth Avenue
New York, NY 10153

App.22a

:

\

App.23a

APPENDIX G
List of Depositions Items Requested by
Plaintiffs and Refused by Justice Friedman

■

App.24a
BUHANNIC V. TRADINGSCREEN:
DEPOSITIONS REQUEST
1.

Chris McCormick (authorized by Justice Friedman)
JB DRAX Honore
1270 Avenue of the Americas
New York, NY 10020

2.

Robert Trudeau (refused by Justice Friedman)
TCV
280 Park Avenue
East Building 26th Floor
New York, NY 10017

3.

Mark Muller (refused by justice Friedman)
Bloomberg
731 Lexington Avenue
New York, NY 10022

4.

Latifat Afonja (refused by justice Friedman)
C/O Buhannic
65 Central Park West 17A
New York NY 10023

5.

Bruce Rosenthal (authorized by justice Friedman)
TradingScreen
1 Penn Plaza 49th Floor
New York, NY 10119

6.

David Pollack (refused by justice Friedman)
Morgan Lewis
101 Park avenue
New York, NY 10178-0060

App.25a

7.

Nicholas Carmi (refused by justice Friedman)
377 Broadway
New York, NY 10013

8.

Jerome Hershey (refused by justice Friedman)
Ondeck Capital
1400 Broadway
New York, NY 10018

9.

Annie Massa (refused by justice Friedman)
Bloomberg
731 Lexington Avenue
New York, NY 10022

10. Chris Flipo (refused by justice Friedman)
26 rue Pierre Semard
75009 Paris
•

Testimonies requested by Plaintiffs
10 testimonies requested, only 2 accepted by
judge Friedman

•

Testimonies accepted by Judge Friedman
20% of the testimonies accepted

•

Testimonies requested by Defendants
10 testimonies all accepted

•

Testimonies agreed by judge Friedman
100%

The Defendants got 8 more testimonies and could
pick anybody. The plaintiffs have two and cannot pick
any.

App.26a

APPENDIX H
Requests for Discovery and Inspection Never
Even Answered \

/

mm

i

App.27a
PLAINTIFFS’ FOURTH REQUEST FOR
DISCOVERY AND INSPECTION
(FEBRUARY 19, 2018)
SUPREME COURT OF THE STATE OF NEW
YORK NEW YORK COUNTY
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC., PIERRE SCHROEDER,
PIERO GRANDI, FRANK PLACENTI,
ROBERT TRUDEAU, TCV VI. L.P., and
TCV MEMBER FUND, L.P.,.
Defendants.
Index No. 653624/2016
PLEASE TAKE NOTICE THAT, Pursuant to Article
31 of the Civil Practice Law and Rules, and the
applicable Rules of the Supreme Court of the State of
New York, County of New York, Plaintiffs Philippe
Buhannic and Patrick Buhannic, representing them­
selves Pro Se, hereby demand that Defendants TradingScreen, Inc., Pierre Schroeder; Piero Grandi; Frank
Placenti; Robert Trudeau; TCV VI, L.P. and TCV Mem­
ber Fund, L.P. serve a written response to their First,

App.28a

Second, Third (as most of the documents requested are
missing in the delivery) and this Fourth Request for
Discovery and Inspection and produce the documents
or things specified below electronically, or, at 65 Central
Park West, 17A, New York, New York 10023, Attn:
Philippe Buhannic
Definitions

-

1. “Plaintiffs” means Philippe Buhannic and
Patrick Buhannic.
2. “Defendants” “You” and ‘Your” means TradingScreen, Inc., its respective parent companies, the various
other defendants and each of their present and former
subsidiaries, affiliates, predecessor companies, successor
companies, officers, directors, agents, employees,
representatives, or other Persons or entities acting or
purporting to act on behalf of Defendants, in any
jurisdiction.
3. The term “Communication(s)” as used herein
should be interpreted in the broadest possible sense,
and includes the exchange of any written, oral, electronic,
or recorded information of any type, including but not
limited to e-mails, phone calls, letters, messages,
faxes, notices, photocopies, videotapes, video and audio
recordings, computer records, electronic messages of
any type from any phone, computer, messaging device,
website or social media, internet materials, any
“deleted” but recoverable electronic files, electronic file
fragments (files that have been deleted and partially
overwritten with new data), and any other retrievable
information.
4. The term “Document(s)” as used herein should be
interpreted in the broadest possible sense, and includes

App.29a

any written, printed, electronic, or recorded information,
including originals, copies, translations and drafts
thereof and all copies bearing notations and marks not
found on the original. The term includes, but is not
limited to, papers, e-mails, messages, letters, agree­
ments, contracts, notes, memoranda, pictures, records,
computer files, and all things similar to the foregoing,
whether maintained in physical or electronic form,
however denominated and wherever located.
5. The term “electronic” as used herein should be
interpreted in the broadest possible sense and includes
any information or data stored or processed by electronic
means, including without limitation: (i) digital commu­
nications (e.g., e-mail, voice mail, instant messaging);
(ii) word processed documents (e.g., Word, Word
Perfect, Pages or Google documents and drafts); (iii)
spreadsheets and tables (e.g., Excel, Numbers, Lotus
123 or Google worksheets); (iv) accounting application
data (e.g., Quickbooks, Money, Peachtree data files); (v)
image and facsimile files (e.g., .pdf, .tiff, .jpg, .gif images);
(vi) sound recordings (e.g., .wav and .mp3 files); (vii)
video and animation (e.g., .avi and .mov files); (vii)
databases (e.g., Access, Oracle, SQL server data, SAP);
(viii) contact and relationship management data (e.g.,
Outlook, Act!); (ix) calendar and diary application
data (e.g., Outlook .pst, Yahoo!, blog tools); (x) online
access data (e.g., temporary internet files, history,
cookies); (xi) presentations (e.g., PowerPoint, Keynote,
Corel presentations); (xii) network access and server
activity logs; (xiii) project management application
data; (xiv) computer aided design/drawing files; and
(xv) backup and archival files (e.g., zip, .gho).
6. The term “Relate to” and “Relating to” as used
herein should be interpreted in the broadest possible

App.30a

sense and includes referring to, pertaining to, contain­
ing, evidencing, regarding, addressing, identifying, or
is in any way pertinent to. Thus, documents that
“Relate to” a subject also include those which were
specifically rejected and those which were not relied
or acted upon.
7. The term “Person” as used herein should be
interpreted in the broadest possible sense and includes
a natural person, company, corporation, partnership,
limited liability company, unincorporated association,
joint venture, firm, governmental body, sole propri­
etorship, and any other form of entity, whether privately
or publicly owned or controlled, for profit or not-forprofit, or partially or fully government owned or con­
trolled.
8. All references to companies, corporations, par­
tnerships, limited liability companies, unincorporated
associations, joint ventures, sole proprietorships, or
any other form of entity includes each of their current
or former officers, directors, partners, members, stock­
holders, employees, agents, parents or subsidiaries, suc­
cessors, affiliates and anyone acting or purporting to
act under their control or on their behalf.
9. The use of the singular form of a noun or pronoun
shall be considered to include within its meaning the
plural form of the noun or pronoun, and vice versa.
The masculine form of a noun or pronoun shall be
considered to include within its meaning the feminine
form of the noun or pronoun, and vice versa.
10. The words “include” or “including” should
mean “including but not limited to.”
11. The connectives “and” and “or” should be con­
strued disjunctively or conjunctively as necessary to

App.31a

bring within the scope of the Request or Requests all
responses that might otherwise be construed to be
outside of its scope.
12. The terms “all,” “any,” “each” and “every”
should each be construed as both “each” and “every” to
bring within the scope of the Request or Requests all
responses which might otherwise be construed to be
butside“bf its scope.
~
13. The term “possession” includes actual posses­
sion by You, actual possession by You with another, or
constructive possession by You in that You are legally
entitled or able to obtain actual possession from
another Person.
14. As the term “possession” pertains to e-mail,
the term includes, but is not limited to, e-mail
contained in Your electronic e-mail directories or
servers containing but not limited to:
a.

“Sent” e-mails, including all subdirectories
irrespective of the title of such subdirectories;

b.

“Received” e-mails, including all subdirecto­
ries irrespective of the title of such subdirec­
tories; and

c.

“Deleted” e-mails which have not been per­
manently deleted, including all subdirectories
irrespective of the title of such subdirectories.

15. Each “Request” seeks production of all Docu­
ments described in their entirety, without abbrevia­
tion, expurgation or redaction.
16. Regardless of the tense employed, all verbs
shall be read as applying to the past, present and future

App.32a

as is necessary to make any paragraph more, rather
than less, inclusive.
Instructions
17. These demands are continuing in nature. You
are required to make supplemental productions as You
obtain or gain access to additional Documents between
the date of initial production and the time of trial.
18. You are to produce all Documents in Your
possession, custody or control (together with any pre­
decessors, successors, affiliates, subsidiaries or divi­
sions thereof, and their officers, directors, employees,
agents and attorney(s)). You are deemed to be in
control of a document if You have a right to secure the
document or a copy thereof.
19. You are to furnish all Documents known or
available to You regardless of whether these documents
are possessed directly by You, or by Your agents,
employees, representatives, accountants, attorneys,
or any other Person acting or purporting to act on
Your behalf or Your agents’ behalf, wherever located
and by whomever prepared.
20. You are to produce each Document in full,
including the reverse side of any Document unless it
is blank. If any Document cannot be produced in full,
You are to produce it to the fullest extent possible,
specify the reasons for Your inability to produce the
remainder, and provide all of the information that You
have Relating to the unproduced portion.
21. If any Document was formerly in Your pos­
session, custody or control and has been transferred,
lost, overwritten or destroyed, You are to submit in lieu
of such Document a written response which:

App.33a

a.

Describes the Document and its subject mat­
ter; and

b.

Indicates whether the Document was volun­
tarily or involuntarily transferred, lost, over­
written or destroyed, how and by whom, and
explain the circumstances of such disposition
and the approximate date thereof.

22. As to any Document withheld from production
under this request because of a claim of privilege or
other protection, a privilege or redaction log shall be
produced which states:
a.

The type of Document;

b.

The date of the Document;

c.

The author(s) of the Document and if differ­
ent the sender of such Document;

d.

The recipient(s) of the Document;

e.

The general subject matter of the Document;
and

f.

The privilege or other protection claimed.

23. You are to produce the original version of
each Document, together with all non-identical copies
and drafts of that Document.
24. Any alteration of a responsive Document,
including any marginal notes, handwritten notes, under­
lining, date stamps, received stamps, endorsed or filed
stamps, drafts, revisions, modifications and other
versions of a final Document is a responsive Document
and must be produced.

App.34a

25. You are not to destroy, spoil, or make any
changes or modifications to any Document or Commu­
nication. Each original version of a responsive Docu­
ment, together with all non-identical copies and drafts
of that Document, shall be left intact for production.
26. Documents are to be produced as they are
kept in the usual course of business, or shall be orga­
nized and labeled to correspond with each specific
request or any part thereof.
27. In responding to these Requests, You are to
make a diligent search for the Documents requested.
You should not employ keyword, concept or any other
search tools to identify privileged or responsive Docu­
ments unless otherwise agreed to by the requesting
party. If You cannot obtain the Documents requested,
You are to explain in Your response the circumstances
for such and what has been and is being done to obtain
the Documents.
28. Any objection to any Document request herein
is to be stated with specificity.
29. In the event that You interpose an objection
to a definition, instruction, the requested form of pro­
duction, or a Request, You should: (i) clearly indicate
to which part or portion of definition, instruction, the
requested form of production, or the Request the
objection is directed; (ii) clearly indicate whether any
Documents have been withheld based upon the objec­
tion; and (iii) provide all Documents to which objection
is not made as if such part or portion were propounded
as a separate Request.
30. These Requests are not intended to be dupli­
cative. Each Request should be construed indepen­
dently and not with reference to any other Request for

App.35a

the purposes of limitation. Each Request should be
responded to fully and to the extent not covered by
another Request. If there are Documents that are
responsive to more than one Request, please note and
produce each such Document first in response to the
Request that is more specifically directed to the subject
matter of the particular Document.
31. Plaintiffs reserve the right to serve further
Document Requests on Defendant.
Form of Document Production
32. You are requested to produce each Document
in a form or forms that are reasonably usable by the
requesting party.
33. All Documents produced should be produced
in electronic, searchable format and should be marked
with a bates-stamp or similar serial document iden­
tifying system.
34. Documents attached to each other should not
be separated.
35. If a Document is in a form that is reasonably
usable by the requesting party, You are to produce the
Document in that form; provided, however, in the
event You seek to withhold any portion of the Document
on the basis that it is entitled to some privilege or
other limitation of discovery, You may convert the
Document into a form that: (i) permits You to redact
the Document; (ii) is reasonably usable to the requesting
party; (iii) does not make it more difficult or burdensome
for the requesting party to use the Document; (iv) does
not reduce the available metadata of the Document;
and (v) does not significantly degrade the Document’s
electronic search capability.

App.36a

36. If a Document is in a form that is not reason­
ably usable by the requesting party, You are to convert
the Document, if possible, into a form that: (i) is
reasonably usable to the requesting party; (ii) does not
make it more difficult or burdensome for the request­
ing party to use the Document; and (iii) does not
significantly degrade the Document’s electronic search
capability.
37. If a Document is in a form that is not reason­
ably usable by the requesting party and You are not
able to convert the Document into a form that is
reasonably usable to the requesting party consistent
with the above guidelines, You are to contact Shiboleth
LLP to discuss an acceptable form of production for
the Document.
Document Requests
1. The documents requested are listed in the pre­
vious First, Second and Third document requests. The
documents obtained up to now are totally incomplete as
demonstrated by exhibit # 1 (list of missing elements), #
2 and # 3 that proves the desire of dissimulation of the
Defendants.
2. The new Fourth document request items are
listed in exhibit # 1 and is trying to summarize the
missing elements in production as well as items that
are related and needed clarification
3. The depositions requested are listed in exhibit
#6
Dated: February 19, 2018

App.37a

Respectfully submitted,

o

h

‘PKilippe Buhannic""
Aventura 318
Route des Creux 100
1936 Verbier
Switzerland

i.

r

App.38a

Discovery Requests That Are Critical and
Where Not Supplied by the Other Side or
Forgotten by Our Lawyers
1. All emails, letters, texts and all form of commu­
nications between TCV and all board members and
especially Piero Grandi and Pierre Schroeder between
2009 and today on personal and hidden emails.
2. A copy of all financial transactions between TCV
and all board members and especially Piero Grandi
and Pierre Schroeder between 2009 and today.
3. All communication between Ken Nachbar and
Piero Grandi and Pierre Schroeder and TCV between
2015 and today.
4. All communications between TCV and Tradingscreen employees between 2007 and today.
5. All communications between Evercore our
investment bank in 2010 and TCV.
6. All communication between Bloomberg and
Tradingscreen employees, TCV and Board members
especially Piero Grandi and Pierre Schroeder.
7. All communication between Brian Nadzan, Tom
Segunda, Annie Massa, and any other Bloomberg
employees between 2015 and today.
8. All communication between Mark Mueller and
Tradingscreen Board members and especially Piero
Grandi, Pierre Schroeder and TCV representants.
9. All personal and professional emails, texts and
messages of Mark Mueller between 2016 and 2017.
10. All Emails personal and professional of Pierre
Schroeder from Jan 2015 to 2017 as well as all WhatsApp

App.39a

messages and all other messages text or written
communication.
11. All communications between Ken Nachbar and
Dennis Block and board members of Tradingscreen
between 2013 and 2017. (they were both my lawyers
at the time, so we are entitled to that)
12. All communications between Morgan Lewis
David Pollack and other attorneys there between 2013
and 2016 with board members of Tradingscreen. (they
were both my lawyers at the time so entitled to that)
13. All communications between Morgan Lewis,
Greenberg Traurig and Morris Nicholls regarding my
various cases from 2010 to 2017.
14. All communications between Pierre Schroeder
and Piero Grandi on any format: letter, emails, WhatsApp and especially the what’s app groups of Pierre
Schroeder group TS 1 to infinity.
15. All communications between board members
of Tradingscreen and employees between 2010 and 2017
16. All communications between Morgan Lewis
and Tradingscreen employees between 2015 and
December 2016.
17. All communications between the various
attorney at Morgan Lewis working on the Tradingscreen
case between 204 and 2017.
18. A copy of all bank statements of TCV that
will reflect payments to anjr board member, employees
or anybody related to Tradingscreen including lawyers
from 2007 to 2017.

App.40a

19. All communications between Joseph Ahearn,
Brian Nadzan, Chris Hollands, Michael Chin and all
Tradingscreen board members, lawyers and themselves.
20. All communications between all the people
present in the room in May 2016 between them,
Tradingscreen board members, lawyers and among
themselves and any outside person from June 2016 to
2017. All their personal emails from 2015 Dec to 2017.
21. All communications at Bloomberg on the
Tradingscreen case among Bloomberg employees,
between Annie Massa and other people at Bloomberg,
between Annie Massa and any external person but
Tradingscreen employees, any communication between
Annie Massa and her boss regarding Tradingscreen,
any communication between Michael Bloomberg, Tom
Segunda regarding Tradingscreen from 2010 to 2017.
22. All communication between Tom Segunda
and Brian Nadzan from 2010 to 2017
23. All communication with the hackers that Trad­
ingscreen used to hack my different profiles and their
invoices, especially the Wikipedia profile.
24. A copy of all the indemnification agreements
of the board members by the company.
25. A copy of all the payments of Tradingscreen
to the lawyers in Delaware Morris James that supported
their action in Delaware on the corporate side and the
justification given for the payment by the company
given that this is not covered by the indemnification
agreement.
26. A copy of all the payments from Tradingscreen
to the lawyers involved in the various cases and

App.41a

especially Morris James in Delaware and the justif­
ication for these payments compared to the indem­
nification agreement for the new Delaware proceeding.
27. A copy of all the investments made in Quo
systems and BideFX detailed by type and a list of all
the sales detailed by client name.
28. All minutes and list of participants of all
compensation committees from 2010 to 2017.
29. All minutes of all board committees from
2010 to 2017 including the minutes of all the executive
committees (the new board) that exclude us from any
information.
30. All communications between Weil Gotschel
and Morgan Lewis and the arbitrators as well as the
amount of business between the arbitrators, their
firms and Morgan Lewis and Weil Gotschel in the last
three years.
31. A copy of all the financials of Quo systems
and BideFx as well as a copy of their cap table, their
incentive plan and the detailed list of the recipients
and the awards granted to each recipient.
32. All communication between Silicon Valley
bank and TCV and all the other board members and
Tradingscreen
33. A copy of all documents and agreements
between the company and Silicon Valley bank, Silicon
Valley bank and TCV and the board members and Silicon
Valley bank. A copy of the file going to the credit
committee of Silicon Valley bank for the Tradingscreen
file.

App.42a

34. A copy of the agenda of Frank Placenti and
bob Trudeau between January 2016 and December 2017
for Bob Trudeau and since Frank Placenti came to the
board.
35. A copy of all agreements signed between TCV
and Michael Chin, Chris Hollands, Megan Lyons, Patrick
Egan and other employees of Tradingscreen between
2007 and 2017.
36. All communications between the arbitrators
and Morgan Lewis, Weil Gotschel and Kasowitz.
37. A copy of all the correspondence, agreements
and communications that involved Tradingscreen
between the arbitrators, their firms and the Tradingscreen, TCV Pierre Schroder, Piero Grandi Morgan
Lewis and Weil Gotschel camp.
38. An outline of all the business done between
the arbitrators and their firms with Morgan Lewis
and Weil Gotschel and Kasowitz in USD over the last
two years.
39. A list of all the arbitrations where since the
Tradingscreen case the arbitrators have participated
and been selected by Morgan Lewis, Weil Gotschel
and Kasowitz.
40. All the emails from the email address of Piero
Grandi gpg@cuccumaio.com and all the WhatsApp
groups communications created by Pierre Schroeder
as shown in exhibit 3 from 2010 to today.
41. All emails between Tradingscreen, Morgan
Lewis, Morris James, Morris Nichols, TCV and judge
Laster until Morris James stopped his representation
of Philippe Buhannic and Patrick Buhannic.

App.43a

42. All payments done between any of the board
members, TCV of any of the law firms involved and
judge Laster or advantages granted like memberships
etc.
43. The agenda of Ken Nachbar from end of 2015
to December 2017.
44. A complete copy of the T&E of Pierre Schroeder
and Piero Grandi from May 2016 to today with
justification of the expenses.
45. A copy of the new lease for the new office in
NY and the old lease as well as the economic analysis
justifying the move.
46. A copy of the internal reports of TCV on
Tradingscreen from 2007 to 2017.
47. A copy of all agreements between TCV and
Evercore partners signed around the time of the mandate
with Tradingscreen in 2010.
48. All documents regarding TCV talking to the
market about Tradingscreen especially to Barclays
bank. All documents exchanged with Barclays or any
potential investment banker or acquirer.
49. All documents where TCV talked to any of
the clients of Tradingscreen about Tradingscreen.
50. All emails and communication between Vassos
and Pollack and Dennis Block and Ken Nachbar about
Tradingscreen and Philippe Buhannic during the
period where Morgan Lewis and Dennis Block were
the lawyers of Tradingscreen and Buhannic the CEO
and Ken Nachbar was his representant until mid-2017.
51. All communications on the de al that was stroke
between TCV and Pierre Schroeder and Piero Grandi

App.44a

and the company and a copy of all the lawyers working
papers, the full agreement, the emails texts and all
communication about this agreement including the
exchange of emails between lawyers.
52. A copy of the contract signed by Tradingscreen
to recruit hackers to destroy his profile on Wikipedia
and manipulate it and do searches against him the
contract and-all the results of-these-researches.______
53. A copy of the report from an external firm
recruited by the executive committee that evaluated
the stock at 14 cents in 2017.
54. A copy of the report of Centerview and Merrill
lynch and evaluating the stocks at 0 in 2013. A copy of
the memo from the CFO and the audit firm CBIZ
proposing to retain 10 c for tax reasons despite the
market value being 0 for the common stocks in 2014.
55. A table with the evolution of active screens
over the last 3 years, screen being defined as having
traded in the month before.
56. List of all the clients buy side and sell side at
the end of each quarter since end of 2015.
57. A copy of all the contracts signed with new
employees since May 2016.
58. Personal evaluation report of Mr. Trudeau at
TCV for 2010, 2011, onward to today.
59. Copy of all agreements and all payments
between board members and TCV or lawyers as
intermediaries. For any purpose.
60. The legal analysis of Morgan Lewis and Weil
Gotschal on the termination of Mr. Buhannic

App.45a

61. All internal TCV documents on refusing the
election of proposed new independent board candidates
by common shareholders.
62. Legal analysis of their lawyer Weil Gotschal
on refusing to nominate these candidates.
63. All documents demonstrating the refusal of
TCV and the company to have Mr. Buhannic elected as
it should to the comp "committee;
64. All documents and emails and communication
demonstrating the refusal of the board members to
institute an investigation despite a clear case with
Piero Grandi of mismanagement of corporate assets.
All documents demonstrating the refusal by the board
to take the consequences of this discovery and the
emails and communication for all these points with
lawyers. Internal papers of TCV on this subject.
65. All emails and other means of communication,
personal, professional and hidden from the board
members between themselves and TCV and the lawyers
on my side Morgan Lewis and Dennis Block and Bruce
Rosenthal while they represented me until May 2016.
66. A copy of all the emails of Bruce Rosenthal from
January 2015 to today personal and professional.
67. A copy of all agreements between TCV, Piero
Grandi, Pierre Schroder, Tradingscreen and Bruce
Rosenthal between 2014 and 2017.
68. A list and copy of all the payments made by
the company, TCV, any of the board members or any
lawyers to Bruce Rosenthal from 2010 to 2017
69. A copy of all the agreements of the company,
TCV, Pierre Schroeder, Piero Grandi and John Gross

App.46a

the CFO between 2010 and 2017 and all the private
correspondences of John Gross with all Board members
in the back of Mr. Buhannic.
70. A list of all the payments made to John gross
by the company or TCV or any board members from
2013 to 2017.
71. A list and description of all the payments of
the company, TCV or any board members to any
employees of trading that were in the room of the
supposed incident and the documentation associated
with the payment.
72. A copy of all the emails personal and pro­
fessional of Joseph Ahearn from 2009 to 2017 that is
about Tradingscreen or the plaintiffs or linked to the
case with TCV, Piero Grandi, Bruce Rosenthal, John
Gross or any other actor involved in the case.
73. All emails from TCV and all agenda of TCV
board members from 2007 to 2017 with either Tradingscreen employees, consultants or lawyers’ meetings or
emails and any other form of communications.
74. A copy of the internal TCV evaluation report
of TCV for its stake in Tradingscreen from 2013, 2014,
2015, 2016, 2017.
75. A copy of the agreement of Frank Placenti
and TCV with his compensation package and his
statement of work.
76. A copy of all communications by TCV to any
Tradingscreen clients or partners or potential partners
where there was a discussion on Tradingscreen with
Barclays bank and Reuters and all the communication
attached to it. From 2010 to 2017.

App.47a

77. A copy of all the attempts by TCV to find an
interest in buying Tradingscreen with the file given
the names of the companies and all attached docs.
78. A copy of the net worth reports of Pierre
Schroeder and Piero Grandi in June 2016 and now.
79. A copy of the file given to the board at the
time of Mr. Buhannic dismissal to justify this
dismissal.
80. A copy of all communications between board
member in any way on this subject.
81. A copy of the decision of the board canceling
Mr. Buhannic restricted stocks officially the only way
to do it.
82. A copy of the decision to exclude Mr. Buhannic
restricted stocks from the automatic vesting for restricted
stocks before 2015.
83. A copy of the minutes of the compensation
committee that granted the stocks to management with
the list of the participants to this compensation
committee.
84. A copy of all the credits on Piero Grandi
accounts from 2007 to 2017 and on Cuccumaio accounts
directly or any other credit on his personal accounts,
85. All accounts closed at the end of December 2017
as they are available, we know that.
86. Accounts of the BideFx subsidiary at end of
December 2017.
87. Accounts for Quo systems at end of December
2017.

App.48a

88. Calculation of Run rate revenues and costs
calculating these based on the current levels of business
and costs, on a full year basis, at the end of December
2017 and incorporating non-renewed contracts and
committed costs.
89. Total T&E account and T&E for the top 5
people in the company including CEO and Chairman in
detail with justification of the expenses.
— - 90. List of clients lost since June 2016, 2017, and
list of clients accrued since June 2016.
91. Details of debt/leases undertaken since Janu­
ary 2016 or any other commitments taken by the
company.
92. Number of Screens active at the end of June
2016 and December 2017: (Screens are active if they
have traded in the last month).
93. Total amount of legal costs since June 2016
by legal firm and by subject.
94. All written or electronic documents, commu­
nications or other records relating to analysis of the
asset carve-out for the foreign exchange and wealth
management subsidiaries and the resources, number
of people, and total costs committed to it since incep­
tion, including any analysis on creating a foreign ex­
change and/or wealth management subsidiary, costbenefit analyses, revenue targets, budgets and projected
return on investment.
95. The incentive plans of Bide and Quo systems
with the list of the beneficiaries of allocations detailed
per recipient and a full cap table of both companies.

App.49a

96. All written or electronic documents, commu­
nications or other records relating to the impact of the
depreciation costs of the restricted stock plan on the
Company’s profits and losses and the calculation
backing up this depreciation.
97. All written or electronic documents, commu­
nications or other records relating to cost-benefit
analyses concerning continuing or closing the Brazilian
operations, the Chicago office and the Boston office
including but not limited to the costs due to the closure
of these offices over the next two years and any associated
legal costs.
98. All written or electronic documents, commu­
nications or other records relating to analyses of the
costs of the New York office as it is today versus the
new office over the next five years and its impact on
the costs run rate annualized.
99. All written or electronic documents, communi­
cations or other records relating to analyses concerning
the business rationale of creating an office in Frankfurt
and any business plans or forecasts of revenues or
costs of the Frankfurt office for the next three years
on an annualized run rate basis for costs and revenues.
100. All written or electronic documents, communi­
cations or other records relating to brokers that have
moved from a prepayment schedule to on top with no
commitment, including but not limited to the price of
renewal and a comparison between the historic price
and the current price of renewals in 2016, as well as
the percentage of overall prepaid deals as of now
compared to the end of 2015 and 2016.
101. All written or electronic documents, commu­
nications or other records to any contracts renegotiated

App.50a

in the last six months with current clients and the net
financial impact on the Company of these renegotiated
contracts on a run rate annualized basis.
102. All written or electronic documents, commu­
nications or other records relating to aged customer
balances and a list of clients who have not paid their
bills for more than a month with the outstanding
amounts. - --------------- -103. All written or electronic documents, commu­
nications or other records relating to the cost to the
Company of the new hires since the beginning of 2016
in annualized run rate, and information regarding
their total compensation (including equity compen­
sation, if any).
104. All written or electronic documents, commu­
nications or other records relating to analyses since
May 2016 of all consulting/audit/accounting costs
incurred by the company by purpose and by provider.
105. All written or electronic documents, commu­
nications or other records relating to all payments to
Board members and their travel and entertainment
expenses (“T&E”) and the detail of these with copy of
the original receipts and a copy of the company T&E
policy since May 2016.
106. All written or electronic documents, commu­
nications or other records relating to all severance
payments that have been made since May 2016 and a
copy of all separation agreements.
107. All written or electronic documents, commu­
nications or other records relating to any contracts
between the Company and the following individuals:

App.51a

Bob Trudeau, Frank Placenti, Pierre Schroeder, Piero
Grandi, Bruce Rosenthal and John Gross.
108. All written or electronic documents, commu­
nications or other records relating to the Company’s
recent valuation of the its stock at 14 cents, including
but not limited to, any valuation materials provided to
the Company by the recent valuation consultant, the
contract with that consultant, and all communications
with the consultant concerning the company’s input
given to the consultant to perform the valuation.
109. All written or electronic documents, commu­
nications or other records sufficient to show all the
Board’s committees and their composition at the end
of December 2017.
110. All written or electronic documents, commu­
nications or other records relating to the costs of
services used by the Company between October 2015
and present day in connection with obtaining infor­
mation, legal advice, detective services, consulting or
other expenses on Philippe and Patrick, including but
not limited to any such services provided by Bruce
Rosenthal and John Gross or any other person dedicated
to this task.
111. All written or electronic documents, commu­
nications or other records relating to the board, and the
recordings of all board meetings since May 10th, 2016,
as well as all board minutes that refer to these board
meetings.
112. A copy of all yearly conflict of interest declar­
ations of all board members signed and executed for
the last three years, as well as an update from each
board member on the new potential existing conflicts
of interest, and a new executed form to declare these

App.52a

conflicts of interests as required by the company policy
and in the format accepted by the company.
113. A copy of the contract between all board
members and the company, or between the board
members and any entities that could create a conflict
of interest, and the representation contract of Frank
Placenti with TCV and any contract, understanding,
* “deal or otherwise existing between TCV and any board
members since 2007.
114. All written or electronic documents, commu­
nications or other records (salesforce, revenues run
per person, etc.) reflecting the production of revenues
by sales people in USD for all the sales employees that
received a bonus or a stock allocation for the 2016 and
2017 year.
115. All written or electronic documents, commu­
nications or other records regarding the events that
led to the improper release of the employees’ confidential
information as well as all the legal, technical and
other advice on this subject sought after and obtained
by the company as well as a list of the employees
affected and the people responsible for letting the
information get out of the protected server.
116. All written or electronic documents, commu­
nications or other records that would have been sent to
board members by the company lawyers and advisors
or consultants: Bruce Rosenthal, Morgan Lewis, Ken­
neth Nachbar, Dennis Block or any other without
copying Philippe Buhannic and Patrick Buhannic since
January 2016 in breach of the equal information right
of all board members.
117. All written or electronic documents, commu­
nications or other records relating to any settlements

App.53a

or potential settlements in connection with the Delaware
Series D redemption litigation (the “Delaware Redemp­
tion Litigation”). The copy of the final agreement
signed between TCV, Pierre Schroeder, Piero Grandi
and potentially the company, mentioned multiple
times in communications and that we are, as board
members entitled to see at it relates to the future of
the company to discharge ourselves of our fiduciary
duties.
118. All the emails exchanged on the incident by
the participants of the sales meeting when the
supposed incident happened as well as Joseph Ahearn
and Nirav Parapatti on the same incident from April
2016 to September 2016.
119. All Emails and communication with Tradingscreen related people in any way from and to Bruce
Rosenthal after September 2015 to September 2016.
120. All emails from Doug Schwartz and Morgan
Lewis to and from the participant at the sales meeting
when the supposed incident happened as well as all
the recording he made of the conversations with the
supposed participants and the doctored memos he wrote
on their testimony completely doctoring their testimony
as proven with the documents we have.
121. All emails from and to the plaintiffs, Brian
Nadzan personal and professional with people at Bloom­
berg or any other means of communication regarding
the supposed incident.
122. Cell phone and desk phone logs of Brian
Nadzan, the plaintiffs and the participants in the
supposed incident especially Mr. muller, Grandi, Ahearn,
Joshi, Parapatti, Nadzan, Schroeder.

App.54a
123. All communication by Tradingscreen versus
the press concerning the supposed incident.
124. Contract between Beatrice Strasser and Piero
Grandi for her work for him personally and at the
restaurant Scalco or in any other capacity.
125. Foreclosure documents on the property of
Piero Grandi in Sardinia Cuccumaio and the list of
recent payments to the banks since 2010 as well as the
origin of the funds.
126. All communications between Piero Grandi
and john gross and Bruce Rosenthal since January 2015.
127. All email between the plaintiffs and the audit
firm CBIZ on the stock count since January 2015 and
especially the working papers of the three audits 2015,
2016, 2017 and the spreadsheet remitted by manage­
ment canceling the Restricted stocks of Brian Nadzan,
Tim Rast and some other employees for non-perfor­
mance of the objectives as well as the documents that
shows that the current management has without
authorization reestablished these people into their
restricted stocks.
128. All emails from 2007 to today between Bruce
Rosenthal and Joseph Ahearn on stock count, majority
stocks and voting.
129. A copy of all the stock value used by CBIZ
for 2010, 2011, 2012, 2013, 2014, 2015, 2016, 2017 in
its GAAP accounting for tax reasons and the justification
of this value used and the documents relevant to it.
130. All documents since 2000 to today from Bruce
Rosenthal, Joseph Ahearn, David Pollack and TCV and
Bob Trudeau on the explanation of the working founders
and shareholders agreement.

App.55a

131. All communication between any board
members and any of the top 20 employees by pay of
Trading screen from 2010 to September 2016.
132. All the email between Ken Nachbar, Dennis
Block and Board members on which Patrick and Philippe
Buhannic were not copied.
133. A table confirming the payments for retire­
ment to Mr. Buhannic since his contract got signed in
2007 and all communications about the retirement of
Mr. Buhannic between the compensation committee
members and the company and TCV on this subject.
134. The documents or legal analysis explaining
the non payment of the bonus of Mr. Buhannic in clear
contravention of his contract and all communications
between the rogue board members and TCV and the
compensation committee that will explain this non
payment.
135. The documents or legal analysis that justifies
the non-payment of Mr. Buhannic cash and stock bonus
for the years in questions, 2013 to 2016 in clear
contravention to his employment contract and all
communication on this subject between the rogue board
members and the compensation committee and TCV.
136. A list of all Restricted stocks by recipient
that have vested after the broad decision to vest all
restricted stocks before 2015. A list of all the restricted
stocks that did not vest and the justification for not
vesting these stocks with the documentation of the
board approval for these decisions.
137. A list of all the recipients and the amount
received by them of their share of the dividend they
received at the time of the vesting of these restricted

App.56a

stocks and the list of the recipient of restricted stocks
that did not get their dividend paid at this vesting.
Missing Items from Production
1. All the texts and WhatsApp messages that are
critical as they used this communication to avoid being
caught manipulating. In particular the WhatsApp
groups 1 to 10 maintained by Pierre Schroeder.
2. All the private emails from Cuccumaio emails
etc., and Pierre Schroeder private emails as well as
the emails from Bob Trudeau etc.
3. All the financial transactions between TCV
and Piero Grandi and Bob Trudeau that happened
during the period and since the coup.
4. The agreement between the company, TCV and
the two rogue board members against Philippe and
Patrick Buhannic.
5. All the communications between the two rogue
board members and TCV and the Lawyers as inter­
mediaries.
6. The documents requested in the 220 information
demand that was logged under 655848/2017.
7. All the financial transactions between the two
rogue board members and TCV and especially the
payments from TCV directly or indirectly to Piero
Grandi.
8. All the communications between Bloomberg,
Brian Nadzan, the two rogue board members, Tom
Segunda at Bloomberg regarding the supposed incident.
9. All the communication between the top em­
ployees of Tradingscreen and the two rogue board

App.57a
members in the days preceding and following the
supposed incident.
10. All the information requested in the second
discovery request and never provided.
11. All the information requested in the third
discovery request and never provided.
12. Most of the documents that would be incrim­
inating or valuable have been “forgotten” and not
supplied making this discovery totally useless. The
lawyers have manipulated our demands and made
them de facto ineffective, bombarding us with useless
documents and retaining all the documents that would
help our case. Another case yet, as if we needed more,
of the totally corrupt nature of Morgan Lewis as a
legal firm.

App.58a

APPENDIX I
Manipulation of Social Medias by Defendants

App.59a

MANIPULATION OF SOCIAL MEDIAS
Below are the Wikipedia Profile changes & Date
(with screenshots and links) as manipulated by the
Defendants and their Hackers team. These changes are
still there today as we wanted to leave the proof of
their manipulation. Wikipedia also offers an independent
and unalterable tracking of the changes which easily
demonstrates the ill intent of the Defendants as they
hacked my profile and made me person assaulting others
BEFORE this was even happening and resolved
demonstrating the manipulation better than any words
from expensive lawyers of the defendants.
All links are public and can be verified inde­
pendently.
A change in your profile occurred on May 16. 2016
and it was reversed on May 17. 2016.
TradingScreen official “Change of Leadership
announcement” took place on May 18. 2018.
The IP used for the changes was: 5.101.65.138
According to IP tracker this IP is based in Russia
which suggests a proxy was used to post the changes,
http ://www. ip-tracker. org/locator/ip-lookup.php?ip=5.
101.65.138

App.60a
A breakdown of the changes of
Philippe Buhannic personal profile.
https://en.wikipedia.org/wiki/Philippe_Buhannic
%s f?l

A

0

1

t

I II

g ;

s

I
i u
if
t
i%

!

*1

I

s'
I

*
P
c

&

I

i

t»

Ia

I

i

e

I

i

s i

LI

•a«

m

*
*

I ill*

c- Ui#|
12.31:1

III

HI

f* I

I I

f
e
| * !

III

III

Mi
IRQ*
! III

I
&* II

I

!

ill

a

o

S

0

T

1 If I lit
m

•§
2

II

I
&

ipii
la • •

App.61a
History of changes in Wikipedia:
Proving the assault was fake and manipulated as
Wikipedia was changed days BEFORE that the fake
assault even happened!
https://en. wikipedia.org/w/index.php?title=Philippe_
Buhannic&action=history
j W-' ^ O?

7oaao»ao''
am

MA

Wikipedia

UtTaVs

m vim Mm fcm-tf-.

*!

I Philippe Buhannic: Difference between revisions
I

Acre <**»■*«.

i

UM mUnn of 0»:i 9.1? May JB1* (MO (andco

ftmbton *0*1043, IttiaylOII

»wa

(Uwy crtftA metoex & s mm. m mu

xRniM«di>

Hw.

lie* It:

Until:

F*
I

i*

i

f*t»***rQM
CVWMi
N»

tfto*
IMM!M

cmMtff • nca^ns 4n*r a |0n« tcMM Art OacMcf t> tplm

' M>«tu»*W>iw»4p| »>3cc*iereaHtftR»»artTa»|iJ»y
|
••• *>h«VO OMM M

Me» b> mnaj •> CM nmfi m M ■ tn«v cnaM *M
> CHAimp M CRO a UnitOkm* tHM.•
a stoaat
MM^.fwnvdtncMrabMi'nFWCna’wiWB

l*MR>
ln*M
ttrffe*

' OtnM»&namvO»si*a(w#tw MiHwAHROne M»<9*?©
1 >M) w M «»tmt* gla
cap* c<
CwtW 6* trr<*. Mre ;
| h»eMn»(»0aMinre>tnt«i

Ctont

=**«

IMmt Mj» * UOA ten*
VSA UrftMVJV |Mrn »9o9> # Mhma a
Mato* dap** Vi On*et an* T«**a» 6o» fMM Otfctot imaum M M«3
to* onto*gonba el a© fmmwlai*y*«iodaon ana 0*a

i

1 UnmMan v (Mo* **tM«g< Mt pvAaOmrire Pdtowt m Art©
Mt«4t9Va**MW0
«i •« ton* Mmy Mexaiton M eua

Oil « wa
MrMC*«y

^MS M«

1
|

!

i
LtoalT:

Uoolft

J Atop* &r*vfc‘« mmw «irreqninttaS r n» t*Vaw*j two*. «e

:

«c*M«nttkMeg
aWJMttMM
MmagiS«Nt»

-:

J

M<
AniMMK

I
' Latest revision <m of 05:10,17 May 2016

!

App.62a
TradingScreen Site announcement (see 2nd line):
https://www.tradingscreen.com/index.php/newsroom/
press-releases
ETraS§Screen
Cotrifany *

Solutions'

Galaxy *

ixjvk&y * TrodSr>a ♦ tnvtnhrwnl

Careers •

Wewsroom *

©lent Portal -

Company News
?i*«w

jet****;™;

ZlL

not
j ?«<SneSne*ft*tioitQA*0?ar:Ktf: fXV*rt tortwfa

'

j

0*sr
; 31 U*y20t6

i Ti«din{Sow't*n'>otir.c«iU*dmMp Ch*sy*T .

. UU*y»f6

j *Bts OK Cw^iWlHettet Pt*tfis*Trt“ Amat*t to T>*cJ"*^«Mr.

{2SfK*w«y20i6

I TwfruStrem fcnjs HwmtTheCeH A*t>» 2QI4A( Hufg* fw»l A*te«t

: Mjeixarynis

j Tadfnf^ftaeAPrmewSGXiOorrfTn&Knaifwm

1 UDMifftnmt

| FflurSW*wAwi«tW*»crd*tf'fcTrjK&sgSorcn

i TteM Cr«fvtl©ti ei#tfc*rr“ Aenrrf*d ipTiwtugVi wn
i Aslan PiViitScnMr
* tr*dh(^oten Uwvtwi fitt^o Surv«Kintt "teH fo« thted Owwsdrt*
'9Mt «*» Tetfoo^tf PrcKtet-SV* XJAHgmwr Ate**} vk*» 9* ■**»-*$»«*

a»M0CTgibfr«n5

;

i KNaKefrtArXnS
if Nw*«iO«r20tS
I 05Novt<T**r23tS
| 10 September 291S

«

App.63a

APPENDIX J
Proof of Manipulation of
Discovery by Defendants

App.64a
PROOF THAT THE DEFENDANTS HAVE HIDDEN
MOST OF THE COMMUNICATIONS IN BREACH
OF DISCOVERY RULES
Whatsapp messages (partial) not provided by the
defendants. There are many groups and texts as they
choose to hide their tracks by using electronic commu­
nications.
These messages proved without any doubt that the
Defendants have been hiding their communications
using electronic means and contrary to the discover
not surrendering their real communication as it would
prove their manipulation consequences if land ill intent.
The message from Pierre Schroeder to me on April
24th, so just one day before the supposed incident
THREATENING me clearly of consequences if I did
not comply to their desire of getting more responsibility
(and mostly more MONEY) from the company as they
were both (Piero Grandi being in foreclosure and
Pierre Schroeder in ruin because of a second expensive
divorce) financially ruined. This followed a direct threat
by my lawyer in Delaware Ken Nachbar asking me to
put Piero Grandi as chairman of the board or “suffer
consequences” a few months before. There was clearly
a coup organized and the rogue board members used
the electronic communication to avoid leaving trace
but did not answer the call of the-discovery to surren­
der these messages as it was clearly defined and
requested as it will incriminate them badly. Instead they
bombarded us with invoices and value less documents.
The court should penalize their attitude severely.

App.65a

TS3

c; + ^

p

W«» aw*,***!

%

•••

wehsrcTvvwa**

Srteee*,rf*‘Tt<Tiw*»* |"e<tr*'Kr

Srtt»w<)ti >>» 1e

i ^mscm.
You* Rere-rttocnwe b eMooiljr * ne*«po«ie.

1 The prebtemBthKiRBr&r Town in* (Main. wthsvewtViKrtirtofti:
, •eittmiioTtaweejrMTrf’Jiourbaye'f o*<oiff tececdrerejpmeenp

; cnwn«o*e«iel>eo#»w»mjliewh'^S*<Pmftrt*8*»thMf»*tT‘Nr«l
• nunder<ontr»lAM«e<*bn<l»M>«nf>y<gr>v«ln^ren!ent>fiA9t(e^
: «*h «'(»’ yeor nttt'ne'b:
rfyO«jtf9o<jl«W"( teh*w ttMtdiKUKte'te'WBiefejy. Ibtnl end'
*u*ftWero »*B|w«»(Joi>h«weewpKtohm«meftwnm«vefy
«<>*** m «rdtf» g« cut oJift* o*s» end f*« j» e*w« nfift «w rest:

m

;s*: otr owi w*iyr*r- Both **n * no Own* «rt extort* <on*H K4 when
• tc
WHMteu*.
Scbrortet Pierce

pw* T a n* me (m **• pee rtwbpeeete <** pertm TSS

□

| Trm prowpm wWi ft* feran} «ppto*eiH tfst iherr k rt*ihf sTjhtrtl
j <F»ti6<»mv*i*;*‘jrr>*im-cmfl<rtti>myerwouSdttJv*ieiBto<ien
; ertirt t»Op0mtJ:eurf*niion. teKj«»Mfrt.epOon IH bed tr*t}rx

,

. •e'Atvefe nr* d KfnwiS/mt ine'b'vt r#w tau

i

0>!

’, to t »* yen i bitirnrtegbe»AMtter*rntcjr^We»<*»<r,tow<n
X

c; + *•

A

l:

-•v:-.

☆ 6 -*

2o<*et«)

731

p ^ ...

-

thr fmaMcnth M is •<•«* «• efc) 9m U«*o»St «■*
-4ar*t ****■++* Hi+t*+'>***Vwje»»«r
. mr+»tr*«h »»tir «w* <»«** ts*

•

1

•%* •#rp*trn
nerudh)* trecvwr> he »m *>A

ZZZ;
■yewWewmerirn w»wgi>m jm^Dtirimiwrmir, AenT'-^re i
(**<w «9*k

tsm ***■ one *m so «h «n*t +• tMp* ••
*»»*<*' «»>»*<»«<*

«w t>qts »*« «**f»
te-O^wgAthr'tM:

.

Unneittia.

a

Thegnman«S«*i«>n*rmh6^rntViHeim«•»•*T»«•>»* «!0ara
w*»* —*n m i* i*> »>
eo rt*jaHrt tut ptnten. ie xy>v
SyBW* »
\X‘

:x

>*,W*o»'TUm mVttuHi «Nh'frf**%4e**«rt’e.

*■* i*w»rjt soap*nee* »p*t»*»•»*« »* <t*^r** tv^wi. r*«K •«
fUNMn <r.«» fuse* «*r*i1W
Are 4 (VtAVexatfu* W* *e
OntM toM4 «e< N»*!«^4*be «en«M>.
c
F*ene« you t« ain.TBS eppeir tenet
<*r>
yeur
iww>*mj »ntf<j» eerafciaery A«ftenaJi * WttWei.
.. {r»em»*‘,nfl»«e>e ;lm *irp| > n.

tes

•9rWW«M

.....

•whwtOMrMi

xr aMPhwrf

ol

# « -»

If this is not a Threat, I don’t know what a threat is!

App.66a

One of the multiple manipulated electronic groups
created by Pierre Schroeder and not surrendered in
Discovery.

0 *
9

\ X
*
r

**

;

I!
if

$

$*

Hi

; iil

m
' (ill

'■

X

i.
i

%t
I

1

ti

\
f

i

$ 1

I11I

r*!
i >

l I

mi!

!
!
s

I

11
ii

i !P

I$ j
<1
£ :i;

: ill!

@

+

m

i

,

■

!

'I!

!

11!

J;

App.67a

APPENDIX K
Multiple Requests for Discovery in
Court with No Effect

App.68a
PLAINTIFFS’ THIRD REQUEST
FOR DISCOVERY AND INSPECTION
(NOVEMBER 7, 2017)
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC., PIERRE SCHROEDER,
PIERO GRANDI, FRANK PLACENTI,
ROBERT TRUDEAU, TCV VI. L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index No. 653624/2016
PLEASE TAKE NOTICE THAT, Pursuant to
Article 31 of the Civil Practice Law and Rules, and the
applicable Rules of the Supreme Court of the State of
New York, County of New York, Plaintiffs Philippe
Buhannic and Patrick Buhannic, by and through their
attorneys, Shiboleth LLP, hereby demand that Defend­
ant TradingScreen, Inc. serve a written response to this
Third Request for Discovery and Inspection and produce
the documents or things.specified below electronically,

App.69a

or, at the offices of Shiboleth LLP, One Penn Plaza,
Suite 2527, New York, New York 10119, Attn: Daniel
S. Goldstein and Joshua Levin-Epstein, Esq.
Definitions
Same definitions as for the Fourth request
Instructions
Same instructions as for the Fourth request
Form of Document Production
Same form of document as for the Fourth request
Document Requests
4. A list of any new Debt acquired or leases signed
since June 2016.
5. A list of all clients lost since June 2016 and a
list of clients acquired since June 2016.
6. A list of all accounts closed at the end of June
2017.
7. A list of the number of screens active at the end
of June 2017 (i.e. screens that have traded since then).
8. A current calculation of TradingScreen’s run
rate costs and revenues.
9. Accounts of BidFX, including allocation of stocks
in the BidFX incentive plan, and amounts invested
into BidFX by TradingScreen.
10. All outstanding agreements between (i) TCV
and the Board members; and (ii) TCV and TradingScreen.

App.70a
Respectfully submitted,
Shiboleth LLP

By:
Daniel S. Goldstein
Joshua Levin-Epstein
1 Penn Plaza, Suite 2527
New York, New York 10119
(212) 244-4111
Dated: New York, New York
November 7, 2017

App.71a

PLAINTIFFS’ SECOND REQUEST
FOR DISCOVERY AND INSPECTION
(JUNE 27, 2017)
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY

PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC., PIERRE SCHROEDER,
PIERO GRANDI, FRANK PLACENTI,
ROBERT TRUDEAU, TCV VI. L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index No. 653624/2016
PLEASE TAKE NOTICE THAT, Pursuant to Article 31
of the Civil Practice Law and Rules, and the applicable
Rules of the Supreme Court of the State of New York,
County of New York, Plaintiffs Philippe Buhannic and
Patrick Buhannic, by and through their attorneys,
Shiboleth LLP, hereby demand that Defendant TradingScreen, Inc. serve a written response to this Second
Request for Discovery and Inspection and produce the
documents or things specified below electronically, or,

App.72a

at the offices of Shiboleth LLP, One Penn Plaza, Suite
2527, New York, New York 10119, Attn: Daniel S.
Goldstein and Joshua Levin-Ep stein, Esq.
Definitions
Same definitions as for the Fourth request
Instructions
Same instructions as for the Fourth request
Form of Document Production
Same form of document as for the Fourth request
Document Requests
1. The current capitalization table of TradingScreen.
2. All previous versions of the capitalization table
of TradingScreen over the last 24 months.
3. The current stock ledger of TradingScreen.
4. All previous versions of the stock ledger of
TradingScreen over the last 24 months.
5. TradingScreen’s current D&O insurance policy.
6. TradingScreen’s D&O insurance policies for 2015
and 2016.
7. Any claims submitted by any directors or officers
for coverage under TradingScreen’s D&O insurance
policy from January 1, 2015 to the present date.
8. Any claims submitted by TradingScreen to insu­
rance companies under TradingScreen’s D&O insurance
policy from January 1, 2015 to the present date.

App.73a

Respectfully submitted,
Shiboleth LLP

By:
Daniel S. Goldstein
Joshua Levin-Ep stein
1 Penn Plaza, Suite 2527
New York, New York 10119
(212) 244-4111
Dated: New York, New York
June 27, 2017

App.74a

APPENDIX K
Transcripts Heavily Doctored by
Justice Friedman in a Clear and
Recorded Case on Adeolu Sunday

App.75a

TRANSCRIPT OF THE ADEOLU SUNDAY
INCIDENT BEFORE DOCTORING
[Transcript, p.8]
THE COURT: So that will be the ruling, then.
Now, Mr. Buhannic, you will have the right to
proceed without counsel in this action but you
will be held to the same standards as parties who
have counsel, and that is what I must do. You
have already had two well-known law firms in this
case; Kasowitz, Benson and the Shiboleth law firm.
You, evidently, have not been in agreement with
either counsel.
I strongly urge you to retain counsel to represent
you in this matter. And this is a complicated
commercial case, involving complicated procedural
and substantive issues; and I must hold you,
whether represented or not, to the same standard
as represented parties. While you have the right
to proceed on your own, a case like this is very
difficult to negotiate without counsel.
Now, Mr. Sunday, would you come forward, please?
(Mr. Sunday complied.)
THE COURT: You may stand next to Mr. Buhannic.
(Mr. Sunday complied.)
THE COURT: Do I understand that you are an attorney
admitted to the Bar in Nigeria?
MR. SUNDAY: That’s correct.
THE COURT: And do I also understand that you are
studying at NYU Law School?

App.76a

MR. SUNDAY: I actually finished.
THE COURT: Did you study for a JD or an LL.M.?
MR. SUNDAY: LL.M.
THE COURT: Okay. Well, I want to tell you that we do
not allow laypersons—and I’m treating you as a
layperson out of no disrespect. You have your
Nigerian Bar.
You’re not admitted to the New York Bar; correct?
MR. SUNDAY: Correct.
THE COURT: All right.
We do not allow the practice of law by people who
are not admitted to the Bar or who are not admitted
pro hac vice.
And the practice of law can be a tricky thing.
Calling the Court to find out how to get relief for
Mr. Buhannic and ghostwriting papers that—I’m
not saying you’ve done it yet, that you’ve ghost­
written any papers; but writing papers without
having your name on them, giving legal advice,
all of that can be considered to be the unauthorized
practice of law. And I am just putting you on notice
that if I have a concern that that is happening
here, i will refer this matter to the disciplinary
committee that regulates lawyers’ affairs; and if
you have any thought of being admitted to the
New York Bar, that could be very problematic.
So please don’t put yourself in a position where
you are engaging in the unauthorized practice of
law. I’m going to assume that you haven’t, up to
this point, and I just want you to be on notice of
how serious a matter that could be.

App.77a

Is that understood?
MR. SUNDAY: Right. I understand that, but I’m not
doing like that.
THE COURT: You are not...?
MR. SUNDAY: I understand that, but I am not doing
anything like that.
THE COURT: All right, very good.
MR. BUHANNIC: Never did, never will.
THE COURT: Excuse me?
MR. BUHANNIC: Never did, never will.
THE COURT: Very good.
MR. BUHANNIC: He’s an intern.
. THE COURT: Just make sure that he doesn’t—
MR. BUHANNIC: I have interns all my life
THE COURT: Mr. Buhannic, only one person . . .
[...]

App.78a

TRANSCRIPT OF THE ADEOLU SUNDAY
INCIDENT BEFORE DOCTORING CLEAR
DESTRUCTION OF EVIDENCE BY A JUDGE
[Transcript, p.65]
THE COURT: And who is the gentleman seated in the
back of the room, on the far right?
MR. BUHANNIC: He is my intern.
THE COURT: Your . . .?
MR. BUHANNIC: Intern.
THE COURT: Intern?
MR. BUHANNIC: Yeah.
THE COURT: Would you come forward, sir, and state
your name for the record, please?
MR. SUNDAY: I will.
(Mr. Sunday entered the well of the courtroom.)
MR. SUNDAY: My name is Adeolu Sunday.
THE COURT: Can you spell that, please Proceedings.
MR. SUNDAY: It’s spelled A-d-e-o-l-u, Sunday, S-u-n-da-y.
THE COURT: And is “Sunday” the last name?
MR. SUNDAY: Yes.
THE COURT: Mr. Sunday, you have contacted us on
a number of occasions; have you not?
MR. SUNDAY: Can you say that again?

App.79a
THE COURT: You have contacted the Court, both my
chambers and my clerk, on a number of occasions;
have you not?
MR. SUNDAY: Just one.
MR. BUHANNIC: It was under my control and under
my request.
THE COURT: Excuse me. All right, we’ll discuss that
further later.
Would you just sit where you can be sure that you
can hear everything, Mr. Sunday?
MR. SUNDAY: Okay.
(Mr. Sunday complied.)

App.80a

APPENDIX L
Motion to Correct Transcripts Heavily
Doctored by Justice Friedman on March 12,2019

App.81a
PLAINTIFFS’ MOTION FOR CORRECTION OF
THE ERRONEOUS, HEAVILY DOCTORED AND
FAULTY TRANSCRIPT OF MARCH 12, 2019
(JANUARY 10, 2018)
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NEW YORK
PHILIPPE BUHANNIC
Plaintiffs,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI; ROBERT
TRUDEAU; TCV VI, L.P., AND TCV MEMBER
FUND, L.P.,
Defendants.
Index Number: 653624/2016
Before: Hon. Marcy S. FRIEDMAN, Justice.
Plaintiffs hereby move on the following grounds
for the correction of the erroneous and doctored
transcripts of the proceedings on March 12, 2019.
Injustice Friedman has doctored this document so much
that it has become a “fiction” writing that is there just
to justify her complete collusion with the Defendants
and the negative decisions she has decided to take
against the Plaintiffs without any basis and trying to
justify her collusion that is most likely based on

App.82a

corruption and her discriminatory approach against
the plaintiffs national origin and Pro se status as we
are not like others improving her lifestyle. Injustice
Friedman has refused to the Plaintiffs the most basic
elements of due process aver this case from pro­
hibiting discovery, to prohibiting us to correct our
lawyers’ mistakes and to amend our complaint or to
recuse herself despite her obvious discrimination in a
flagrant breach to the Federal due process guaranteed
by Amendment XIV of the constitution. She had the
opportunity to leave the case but did not as she wanted
to exercise her bias and collusion against the Plaintiffs
for the benefit of the Defendants, and decided illegally
and contrary to due process to decide on her own recusal!.
Statement of Facts
On March 12, 2019, the Plaintiffs were in court for
a simulacre of justice Injustice Friedman has made us
used to unfortunately. This proceeding was architected
by Morgan Lewis and Injustice Friedman in a colluded
approach with them was staging the case to cancel our
preliminary instruction. The stage was set to cover
Injustice Friedman in her decision to come. We are not
fools any more, after all her negative action against
her and her double language, and we have realized the
incredible collusion with systematic ex-parte commu­
nication between the Defendants and Injustice Fried­
man. Therefore we decided to read a statement after
the startup questions, and we did. The statement is
not even included in the Transcript! Worse in order to
justify her decision on the preliminary injunction that
she has for no reason linked to me testifying with
Morgan Lewis, another due process breach, she has
doctored the transcript of my clear answer yes at the

App.83a

question if I wanted to testify! Morgan Lewis has
refused twice now to take my testimony despite the
fact that I live outside the country and that they are
also perfectly equipped to do this from London in video
conference, saving on a trip and exhaustion of the trip.
The manipulation of Injustice Friedman is to say that
I refused, which is totally inaccurate (Morgan Lewis
did refuse to take twice my testimony) to testify! The
transcript is a fiction writing by Injustice Friedman to
justify her colluded decisions! Another due process
breaches.
I have talked to the court reporters in the past
and Injustice Friedman is well known to systematically
doctor the transcripts. She did that in my case almost
every time and I have the proof of it. In this specific
case we should ask the court reporter for the tape and
compare to the transcript, it will be interesting as a
comparison.
Conclusion
For the foregoing reasons, Philippe Buhannic
respectfully requests the Court, through the admin­
istrative judge, given the unacceptable bias of Justice
Friedman, to enter an immediate cancel from the
record the transcript of the proceedings on March 12,
2019 and to replace them by a transcript that is in line
with what was said during these proceedings. I have
added in exhibit # 1 a copy of my declaration, not
reflected in the transcript currently like my answer
yes to testifying, which was fully red before I left the
room as the level of collusion was so obvious and
pervasive with Injustice Friedman cooperating fully
with the Defendants that there was not point for us to
participate unfortunately. I would also request the

App.84a

court to review the transcripts in the past as they have
been also heavily doctored.

Philippe Bubannic
Aventura 318
Route des Creux 100
1936 Verbier
Switzerland
Dated: Verbier
January 10, 2018

App.85a

The statement made by the Plaintiffs in court
front of justice Friedman before leaving the court was
taken out in the first version of the transcript published
on NYSCEF there was no pages with my statement, after
doctoring once justice Friedman and taking out my
statement, then justice Friedman added back the state­
ment when the plaintiffs complained to the admin­
istrative judge! The new transcript is three times as
big! I have the tape and she also added that I refused
the deposition when I said exactly the reverse and that
I yelled and I did not yell. Given the facts, she has
forced the court reporter to erase the tape to cover her
tracks let’s listen to ours.
Destruction and manipulation of evidence by a
judge multiple times! amazing!
Statement
After close to three years of total inaction, one
year and half of stays imposed by this court and
decisions that are so outlandish that it could constitutes
a best of’what not to do “as a judge”, it is time for me
to move forward and stop losing my time with this
court.
This court is the most corrupt, discriminatory and
colluded I have ever faced in my long career which
spans decades and so many countries that it is relevant
as a comparison. This court has proved to be totally
incompetent in all subjects covered, has shown a
complete disregard for the law and the instructions of
New York state and even worse the US constitution.
It has denied me due process, discovery, right to
amend complaints and so many basic rights guaranteed
by the constitution that the judge in charge should put
in early retirement for incompetence. The collusion

App.86a

with the Defendants, the ex-parte communication and
the discriminatory approach of this court is a shame
on the entire US justice system and proves that the
NY state court system is a laughable joke organized
by the racketeering organization that is the NY bar
association to benefit the big, corrupt law firms like
Weil Gotschal and Morgan Lewis but not to render
justice.
Given the level of corruption I have discovered I will
appeal on higher jurisdictions, hopefully better that
the infamously corrupt NY appeal court, first district
where the chief clerk receives direct checks from
Morgan Lewis and his crooks.
Thank you for your attention and may the court,
as usual, doctor my statement as was done in the past.by
Injustice Friedman.
I decided given the collusion not to talk in the
session and contrary to the transcript and I read a
statement after stating that I will read a statement
and leave. I did not yell, another convenient invention
of the mystical justice Friedman and I just read my
statement and went. I made also very clear that I will
do my testimony.
Interestingly enough the statement was absent of
the transcript before I send a motion to cancel the
transcript for manipulation but clearly in the “BuddyBuddy” system of the court of New York, justice Deborah
Kaplan, the administrative judge, explained to her
friend that this was a serious issue and miraculously
now the statement, incomplete is back in NYSCEF. If
you look at the history changes it will appear clearly.
Another interesting manipulation of evidence by a
judge backed by the administrative judge.

App.87a
Plaintiff have been exposed to a systematic doctor­
ing of the transcripts operated by justice Friedman in
this case. The NYSCEF system can demonstrate that I
am totally correct and that she tempered with evidence
multiple times. I have also recordings (illegal) that
prove multiple doctoring of the transcripts by justice
Friedman.
The clerk office on top made it almost impossible
to file my motion to protect justice Friedman as shown
below despite evidence.
Filing of Motion for Doctoring Transcript
by Justice Friedman
Philippe Buhannic <pbuhannic@gmail.com>
Fri, May 3, 5:28 PM
To: efile@nycourts.gov
I have tried for two weeks to file this. You are
blocking me illegally to do so. Give me a way to do it
as this is unacceptable.
Thanks for your help to make the system a bit
better ...

App.88a

TRANSCRIPT DOCTORED TWICE, WITH NO
STATEMENT ORIGINALLY, THEN RE-INCLUDING
MY STATEMENT AFTER WARNING TO JUSTICE
FRIEDMAN BY THE ADMINISTRATIVE JUDGE
(MARCH 19, 2019)
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: CIVIL TERM: PART -60
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Individually and Derivatively on Behalf of
TRADINGSCREEN, INC.,
Plaintiffs,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index Number: 653624/2016
Before: Hon. Marcy S. FRIEDMAN, Justice.
[Transcript, p.2]
THE COURT: On the record.

App.89a

Good morning. May I have the parties’ appear­
ances, starting with the two Buhannics, name
and address for the record, please.
MR. PHILIPPE BUHANNIC: I don’t speak English,
I’m sorry.
THE COURT: Counsel, your appearance, please.
MR. THOMPSON: Yes. Walter Thompson, 250 West
57th Street, New York, New York, 10107. For the
Plaintiff, Mr. Patrick Buhannic.
THE COURT: Have you filed a notice of appearance,
counsel?
MR. THOMPSON: I have, your Honor.
THE COURT: Counsel for the Defendants, please.
MR. VASSOS: Good morning, your Honor. John Vassos
on behalf of the Defendant, Tradingscreen, Pierre
Schroeder and Piere Grandi. And with me from my
office is Peter Neger, N-E-G-E-R.
MR. CHRISTENSEN: Good morning, your Honor. Evert
Christensen on behalf of TCV, Frank Placenti and
Robert Trudeau.
THE COURT: Whenever one speaks please keep your
voice up, because the acoustics are problematic in
this courtroom. And please speak slowly so the
court reporter can make a record.
I have issued an interim decision and order dated
January 24th, 2019 on the Defendant’s motion to
vacate the preliminary injunction.
By that January 24th order I held various aspects
of the motion in abeyance in order to afford the

App.90a

Buhannics a further and final opportunity to submit
to a deposition.
By supplemental interim order after I was informed
that Mr. Philippe Buhannic was traveling to Europe
to attend a funeral, I further held the motion to
vacate the preliminary injunction in abeyance.
And we are here today for a status conference.
I will hear from the parties 10 minutes per side
with a 5 minute reply by the Defendants. So, it’s
10:15 now by the courtroom clock. I will hear from
the Defendants until 10:25.
And please talk between yourselves as to how you
will divide up the time before we start.
MR. VASSOS: If I could, your Honor, J wonder if
perhaps you want to take first the issue of Mr.
Thompson who doesn’t really have to sit through
the whole argument, as he is trying to have his
client dismissed. It’s up to the Court, obviously.
THE COURT: Let’s have 10 minutes per side, please.
MR. VASSOS: I’m happy to do that, your Honor.
Obviously, we have read your interim order and
we understand your interim order.
On the issues of lifting the injunction and or
possible dismissal of the case, we note that since
the Court’s order the actions of Mr. Philippe
Buhannic further indicates his, frankly, contempt
for the Court in this proceeding.
He filed a motion days later, about 8 days after
the court conference. And he missed the January
in The Federal Court. Again, repeating that he
thought this Court had no jurisdiction. That he

App.91a

belonged in The Federal Court, that was the proper
court.
He also filed a series of motions to try and
expedite the proceeding there which included a
reargument of indemnification. A reargument of
the books and records seeking to have that all
resolved before the conference scheduled for the
6th and the obvious hope of having The Federal
Court take action.
He also filed a removal of this action to The
Federal Court, which was quickly remanded back
as to having no grounds.
So, I would simply state that we believe his
behavior and actions post this Court’s preliminary
order have only showed further contempt of the
Court and warrant lifting the injunction in its
entirety or of a dismissal of the action.
We turn then to the alternative remedy that we
laid out in the letter that we sent to the Court on
Friday, following the Court’s instruction at the
last conference.
THE COURT: I have read your letter and I have also
read Mr. Philippe Buhannic’s letters.
MR. VASSOS: I will be quick, again, your Honor. I
understand the Court has taken time to read all
of this. I would just note the following in that
regard.
The action was commenced in July of 2016. At
that time Plaintiffs and their counsel sought a
TRO blocking us from exercising the right to
re- purchase Mr. Buhannic’s shares pending an
arbitration in which they claimed there were 3

App.92a
amendments signed by Mr. Buhannic both on behalf
of the company and on behalf of the founders
purporting to give away this re-purchase right
and call right.
We all agreed at that time, as your Honor may
recall, I said that we agreed that issue needed to
be resolved. We wanted to have a quick arbitration
on the issue. And we agreed to take no action on
the call pending the arbitration.
That arbitration was held on the first week of
May. Three days of hearings and witnesses with
multiple exhibits. There was post hearing briefing
that took the next three or four weeks. And a final
argument in early June that resulted in a
unanimous opinion by the arbitrators in favor of
the company, that the 3 purported amendments
were not valid and the company continued to have
the right to call and re-purchase Mr. Buhannic’s
shares.
THE COURT: The arbitration award was confirmed
by The Southern District; correct?
MR. VASSOS: That is the last point I was going to get
to, your Honor, yes.
THE COURT: But, is that affirmance of the award on
appeal?
MR. PHILIPPE BUHANNIC: No, it’s on appeal right
now.
MR. VASSOS: I was going to say, yes, as we noted in
our letter he has appealed.
THE COURT: So, the appeal is pending?

App.93a

MR. VASSOS: Yes, it moves at its own pace. But, I would
note that the injunction specifically does not say
through any motion to vacate, any motion to
appeal. It says through the award. That is what
was stipulated to by both parties and so ordered
by this Court at the request of Plaintiffs. If your
Honor remembers, they insisted that it be so
ordered by the Court.
1 will point out that in his decision confirming the
award and ruling against the motion to vacate,
Judge Ramos said that as we all know the Plaintiffs
have a heavy burden in trying to overturn an
arbitration award. He said the argument, quote,
“was completely without merit”, closed quote. And
that they were, quote, “farfetched, unsubstantiated
and purely speculative conspiracy theory”, closed
quote.
We waited for that confirmation. We don’t believe
we should have to wait for an appeal which will
take months.
It has now been a year and a half since that
arbitration award was entered. We believe on the
face of the stipulation that we only had to wait
until the award was rendered. And because we
believe going forward, however, would conflict
with the Court’s preliminary injunction that was
entered in March of 2017, we believe the appropriate
remedy is to ask the Court to at the very least
given all of this behavior, given that final arbitration
award, to modify the injunction to allow us to
pursue if we wish the call of the purchase right.

App.94a

THE COURT: Has there been any communication with
Mr. Philippe Buhannic about scheduling his
deposition?
MR. VASSOS: Yes, your Honor, we have. On Friday
he indicated he wanted a date. We offered Thursday
of this week. He agreed to Thursday of this week,
but said he would have to leave at 3:30. And we
said, we were entitled to a full day so we would
expect him to appear for the full day on Thursday.
That is the current state.
THE COURT: Alright. Is there anything further before
I hear from the Plaintiff?
MR. VASSOS: Not unless your Honor has any questions,
no.
THE COURT: Now, you have indicated that counsel
for Patrick Buhannic is going to seek to withdraw
from this proceeding. I will hear from counsel in
just a moment. Is there going to be any objection
on your part?
MR. VASSOS: No. The only request we have is that he
be willing to appear for his deposition in case if
we choose to take it. He agreed to that. And with
that we have no other conditions and agreed to
allow him to dismiss with prejudice.
THE COURT: Is there anything else?
MR. VASSOS: Not that I can think of, unless your Honor
has something.
MR. CHRISTENSEN: No, your Honor.
THE COURT: So, you have not used your full 10
minutes. I’ll hear from counsel for Mr. Patrick

App.95a

Buhannic. This will not take any time out of Mr.
Philippe Buhannic’s 10 minutes.
MR. THOMPSON: Thank you, your Honor.
I’m here on the instruction of my client, Mr.
Patrick Buhannic, who has asked me to try and
disentangle him from the various points of litigation
that have pursued from this matter.
Originally, he retained me on a judgment that
was being sought against him for previous legal
fees from another firm. That was held before Judge
Perry. He lost that. And after that he said he
wanted to, basically, back out of all litigation.
A lot of the litigation has been commenced, it’s my
understanding, commenced and started without
his knowledge. And a lot of the actions further
followed by his brother have not been with his
understanding at the time they were commenced.
So, he would like to basically withdraw from the
litigation.
We have had conversations with opposing counsel.
We have agreed to, that he would appear for a
deposition if it is so sought after co-plaintiffs
deposition is taken. And to see if the case was
going to proceed further than that. And he would
make himself available for that purpose.
THE COURT: Is he seeking to discontinue any claims
he has asserted in this action with prejudice?
MR. THOMPSON: Yes, your Honor.
THE COURT: Do you have anything further?
MR. THOMPSON: No, your Honor.

App.96a

THE COURT: Alright. Now, I’ll hear from Mr. Philippe
Buhannic.
It’s almost 10:25 by the courtroom clock, a little
bit before. So, you may go until 10:35.
MR. PHILIPPE BUHANNIC: First, after the buying
the arbitrator it’s proven everybody in the business
knows that these two crooked—bought the
arbitrator. Everybody who was watching did
nothing. It’s not right.
I requested a list of all of the businesses between
the two firms here and the arbitrator. It was
never given to me. Guess why? Certainly these
same psycho shit here, okay, have purchased
everybody like my brother, which is very interesting.
I’m sure he has a sweet deal on the price of the
stock which I gave to him. He never paid for it.
So, it indicates this Court is irrelevant.
So, after close to 3 years of total inaction, one year
and a half of pain imposed by this Court and
decisions that are so outlandish that they constitute
the best of what not to do as a judge, it is time for
me to move forward from losing my confidence in
this Court.
This Court is the most corrupt, discriminatory
and colluded I have ever faced in my long career
which spans decades and in so many countries that
it’s worthy to compare it, worse than a judge in
Brazil is much better than here (as heard).
This Court has proved to be totally incompetent
in all subjects. I saw the complete disregard for
the law and the restriction of New York State,
especially the work was insignificant. Where you

App.97a

have starved my resources for absolutely no reason.
We don’t know what—And even worse, The US
Constitution, which I happen to know pretty well.
I am a master of that.
It has denied me due process, discovery, right to
have a Complaint and so many basic rights founded
by the Constitution that the judge in charge should
be put down every time for incompetence.
THE COURT REPORTER: Judge—
THE COURT: I believe—Excuse me, excuse me, Mr.
Buhannic
MR. BUHANNIC: —to benefit the—But, not to render
justice.
Given the level of corruption I have discovered I
will have to be on a higher jurisdiction hopefully
better than the infamously corrupt New York—
Where the chief clerk did not check—
(Inaudible)
Thank you for your attention. And may the Court
as usual doctor my statement as was done in the
past by this Justice Friedman.
Thank you, very much.
THE COURT: Mr. Buhannic, are you agreeing to appear
for the deposition, Mr. Buhannic?
MR. PHILIPPE BUHANNIC: I have offered to do my
deposition. I have—I’m not going to waste my time.
This deposition has no meaning, okay. You refused
to give me discovery rights. You refused to give
me my judicial rights. This is a Constitutional
right.

i

App.98a

I’ll see you in Supreme Court.
THE COURT: Will you appear?
MR. PHILIPPE BUHANNIC: I’ll see you in Supreme
Court—
THE COURT: The record will reflect that Mr. Buhannic
is yelling. And he has stormed out of the court. —
I don’t think there’s anything further to say
today. Will you waive the reply?
MR. VASSOS: of course, your Honor.
MR. THOMPSON: Your Honor, just one thing for the
record.
I would like to note Mr. Philippe Buhannic sug­
gested that there was a deal for a sweet purchase
price for his stock. We did investigate—
THE COURT: Excuse me, excuse me. I am not going
to hear anything about that issue.
MR. THOMPSON: Okay, your Honor. Thank you.
THE COURT: I am granting the application of Patrick
Buhannic to discontinue his claim in this action
with prejudice. That application is being granted
without opposition by the Defendants. And Mr.
Buhannic, Mr. Philippe Buhannic did not, so far
as I could tell, raise any opposition to Mr. Patrick
Buhannic’s discontinuance.
I am requesting that the Defendants and Mr.
Patrick Buhannic obtain a copy of the deposition,
e-file it and file a hard copy with the clerk of Part
60.
The transcript will not be so ordered until the
hard copy is filed with the clerk of Part 60.

App.99a

And let me just say, also, that the statement of
Mr. Patrick Buhannic was made very quickly. So,
we will just have to hope that the reporter got
down whatever she could get down.
Alright. When I said the statement of Patrick
Buhannic I meant Philippe Buhannic. I’m closing
the record for today.
MR. VASSOS: Your Honor, just one more thing. I
think you also misspoke. You said purchase the
transcript of the deposition. I think you meant the
transcript of the hearing.
THE COURT: I meant the transcript of the oral argu­
ment. So, if I misspoke, excuse me.
Alright. The record is closed for today’s proceeding.
Thank you.
k k k

Certified to be a true and accurate transcription
of said stenographic notes.
/s/ Delores Hilliard
Official Court Reporter
So Ordered.
/s/ Marcv S. Friedman
J.S.C.

App.lOOa

App.lOla

APPENDIX M
Proof of Morris Nicholls Lawyers
of the Plaintiffs Attacking Them
While Being Their Lawyer

App.l02a
PROOF THAT KEN NACHBAR FROM MORRIS
NICHOLLS AND DAVID POLLAK FROM
MORGAN LEWIS WERE ATTACKING MR.
BUHANNIC THEY WERE HIS LAWYERS
IN THE COURT OF CHANCERY OF THE
STATE OF DELAWARE
TCV VI, L.P., TCV MEMBER FUND, L.P., and
CONTINENTAL INVESTORS FUND LLC,
Plaintiffs,
v.
TRADINGSCREEN INC., PHILIPPE BUHANNIC,
PIERO GRANDI, PIERRE SCHROEDER and
PATRICK BUHANNIC,
Defendants.
C.A. No. 10164-VCL
Confidential Filing
EXHIBIT A TO RESPONSE OF MORRIS, NICHOLS,
ARSHT & TUNNELL LLP TO PHILIPPE BUHAN­
NIC AND PATRICK BUHANNIC’S MOTION FOR
COURT TO COMPELL [sic] FORMER COUNSEL TO
HAND OVER A COMPLETE COPY OF LITIGATION
FILE TO PHILIPPE BUHANNIC

App.l03a

YOU ARE IN POSSESSION OF A CONFID­
ENTIAL FILING FROM THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
If you are not authorized by Court order to view
or retrieve this document read no further than this
page. You should contact the following person:
Kenneth J. Nachbar (#2067)
Megan Ward Cascio (#3785)
Morris, Nichols, Arsht & Tunnell LLP
1201 N. Market Street
P.O. Box 1347
Wilmington, DE 19899-1347
(302) 658-9200
A public version is not required pursuant to Court
of Chancery Rule 5.1(d)(2).
See below one of the rare internal emails paid by
me and owned by the Plaintiffs that were refused in
the file demand, despite an obvious right to it, with
the complicity of the Delaware Chancery court that
proves the corruption of the plaintiffs’ lawyers that
were working against the Plaintiffs in their back.
In any other country these people would disbarred
for life.

From: Sommella, Karla <karla.sommella@morganle.wis.
com> on behalf of Poliak, David W. <david.pollak
@morganlewis.com>
Sent: Friday, September 16, 2016 9:05 AM
To: gpg@grandipartners.com; Nachbar, Kenneth; block
d@gtlaw.com

App.l04a

Cc: pierre.schroeder@tradingscreen.com
Subject: Revised-Path Forward/TCV Proposal
All:
Enclosed is a revised term sheet. I fixed the mis­
take on the paragraph dealing with the investment
banker retention {seventh bullet under Liquidity}. The
main changes are in the third bullet under Liquidity,
dealing with the interest payments and the upside
equity value. Pierre suggested this approach, and is
comfortable with the language.
Please let me know if you have any comments.
Best regards.
David
David W. Poliak
Morgan, Lewis & Bockius LLP
101 Park Avenue
New York, NY 10178-0060
Direct: +1.212.309.6058
Fax: +1.212.309.6001
Mobile: +1.917.572.3821
david.pollak@morganlewis.com
www.morganlewis.com
Assistant: Karla Sommella
+1.212.309.6021
karla.sommella@morganlewis.com

App.l05a

Revised Term Sheet
TRADINGSCREEN INC.
Path Forward
A.

B.

Legal
•

Delaware redemption case is dismissed with
prejudice.

•

The Series D redemption is irrevocably with­
drawn and the Series D will no longer be
redeemable under TradingScreen’s charter.

•

The Series D holders waive any right to the 13%
interest accrued on unpaid amounts to date.

Liquidity
•

Centerview valuation is the baseline amount
owed to Series D holders upon a sale of the
Company (less amounts already paid).

•

Risk Sharing-to align interests in connection
with a sale of the Company (but not for a
recapitalization of the Company):
o If the total equity value of the business
(including net cash and fully diluted for all
options, common and preferred stock) equals
between $200M and $240M (inclusive of
any escrow, earn-outs or other contingent
payments)—no change to Series D baseline
amount.
o

For every$ below $200M - Series D shares
25% of the downside impact.

o

For every$ above $240M - Series D shares
25% of the upside impact.

App.l06a

•

Beginning January 1, 2019-if no sale has occur­
red, 5% interest starts to accrue (calculated from
Centerview number as principal amount, less
amounts already paid to the Series D holders),
provided that if a sale of the Company occurs
on or before January 1, 2020 at a total equity
value above $220M, then such 5% interest will
be reduced, on a proportional basis, such that
it will be 2.5% at an equity value of $230M and
0 at an equity value of $240M. For the avoid­
ance of doubt, in such a sale the Series D
holders would be entitled to the baseline amount
plus accrued interest equal to (i) 5% at an equity
value of $220M, (ii) 4% at an equity value of
$224M, (iii) 3% at an equity value of $228M, (iv)
2% at an equity value of $232M, (v) 1% at an
equity value of $236M and (vi) 0% at an equity
value of $240M.

•

Beginning January 1, 2020—
interest rate increases to 12%

•

Beginning January 1, 2021
interest rate increases to 13%

•

Interest will be paid in promissory notes, rather
than cash, with the following terms:
o Maturity date is December 31, 2020
o Payable in advance at the Company’s option.
o Acceleration on a sale of the Company or
recapitalization.
o Quarterly compounding.

•

Company agrees to retain an independent banker
no later than May 1, 2018 and to use reasonable

App.l07a
efforts to maximize shareholder value, including
by recapitalization or sale of the business;
provided that in no case would the Company be
required to agree to any transaction at an equity
value that the Board determines in good faith
is not in the best interest of all stockholders.
• At time of sale or recapitalization—We will work
together with our respective advisors to create
a mechanic providing for TCV and Continental
legal fees to be reimbursed out of Series D
proceeds at the time of a sale or recapitalization
(and in a manner that does not affect common
stockholder payouts).
•

Series D is no longer convertible into Common
Stock; however, notwithstanding the lack of
conversion rights, the Series D will continue to
be entitled to the same rights, preferences and
privileges as currently exist (including, without
limitation, the protective provisions and the
right to vote all outstanding shares on an asconverted basis (giving effect to the conversion
provisions solely for purposes of determining
the number of votes cast on any matter submitted
to stockholders generally)).

•

Series D holders agree to reasonably assist in the
creation of subsidiaries for at least the three
following business: Foreign exchange, wealth
management and data and data terminal
vendors. Appropriate protective provisions with
respect to actions by such subsidiaries to be
agreed.

App.l08a

C.

D.

Governance
•

Executive Committee (PG/PS/BT) remains as
governing body for the operations of the business,
with the power to select the CEO and to fill any
vacancy created by the CEO’s removal or resig­
nation.

•

The replacement or removal of any other
person(s) to the Executive Committee will
continue to require the unanimous consent of all
members.

•

The Series D will be entitled to representation
on any Committee of the Board, except for any
Committee solely responsible for exploring or
negotiating a recapitalization (but not a sale)
transaction, in which all of the Series D would
be redeemed (subject to reasonably agreed upon
procedures).

Approvals/Others
•

We will need to work together with advisors to
determine the requisite approvals to enter into
this settlement.

•

Specific structure of settlement will be subject
to further review of the parties’ tax and other
advisors.

The forgoing is for settlement discussion purposes only,
subject to DRE 408. and will not create any rights or
obligations on the part of any party and is not
intended to be legally binding. In particular, the
intentions of the parties are subject to the negotiation.
execution and delivery of appropriate definitive agree­
ments.

App.l09a

App.llOa

APPENDIX N
OTSC on Manipulation of Discovery
by the Defendants

App.llla
AFFIDAVIT OF MERIT
IN SUPPORT OF ORDER TO SHOW CAUSE
(APRIL 23, 2018)
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Plaintiffs,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P., and
TCV MEMBER FUND, L.P.,
Defendants.
Index No. 653624/2016
Philippe Buhannic, being duly sworn, deposes and
says:
1. I am the founder and member of the board of
directors of Defendant TradingScreen Inc. (the “Com­
pany”). I am also the president of NDPB SA, the largest
single shareholder of the Company.
2. I make this Affidavit of merit in support of
Plaintiffs’ motion for an order to show cause to obtain
(l) a real discovery and not a masquerade where the
quantity of useless documents produced is not replacing
the Plaintiffs right to get the evidence that is requested

App.ll2a

(2) given the heavy, proven manipulation by the
Defendants and their lawyers Morgan Lewis and Weill
Gotschal of the discovery process the nomination of an
independent discovery agent by the Court to proceed
to a real discovery process (3) A declaration for
contempt of the Defendants for their manipulation of
the discovery process.
3. After twenty-two long months the case has not
progressed at all and even the deficient discovery
request of our lawyers, that we are trying to fix now,
have been manipulated by the Defendants to a level
that require the intervention of the Court if justice
needs to be rendered vaguely fairly. We will bring in
this affidavit a number of basic breaches to the rules
of discovery that have been systematically engineered
by the corrupt firm Morgan Lewis and their thieves
for hire” lawyers. The level of manipulation is so great
that a penalty needs to be given and the situation needs
to be brought to the disciplinary body of the lawyer’s
association, despite a clear conflict of interest. Therefore,
we will also file a complaint with the FBI.
4. The absence of any decision in 24 months now
has allowed the Defendants who have illegally and
criminally taken control of the Board to destroy hundreds
of millions of dollars of value of the Plaintiffs assets.
Any further delay will compromise not only the capability
by the Plaintiffs when their rights will be reinstated
to turn around the company but also make all their
claims useless as the company is going rapidly to
Bankruptcy. Despite this incredible amount of time to
submit discovery items the Defendants corrupt lawyers
Morgan Lewis and the two rogue Board members and
TCV have used all their efforts to hide the relevant
information for the case as it would be damning for

!

!-

App.ll3a
them. The list of items requested by Kasovitz which
was incomplete and explain the last demand of the
plaintiffs for items that are critical for the case and
that Kasowitz for whatever reason did not ask for, was
requested in February 2017 or 14 months ago! Despite
once again this lengthy period the only supply has
been an endless list of expenses and irrelevant material
for most of it with the clear intent to deceive the Court
by providing a mountain of irrelevant paper but hide
the important items that are key to the case as we will
see in the following analysis. It is very unprofessional
and a serious offence to CPLR XXX. The court should
take the consequences of these actions, declare the
Defendants in contempt and require that the relevant
information be delivered.
5. In point 4 of the request all documents regarding
the negotiation of Mr. Buhannic employment contract
were supposed to be delivered and this included all
communications between the various parties in their
personal emails and professional emails. None were
supplied, and they supplied only the documents of the
contract without showing the electronic communication
that will prove the intent to screw him in his package.
It is important to note that Mr. Buhannic, despite
being in the 5% the least paid CEO in his business and
being one of the most successful had been forced into
a renegotiation which only objective was to sci'ew him
by forcing his pay even lower! The lawyer defending
Mr. Buhannic stated that he had never seen a 70% owner
and creator of a company being treated like that. On
the other side were the corrupt compensation committee
Piero Grandi and Bob Trudeau and Morgan Lewis the
corrupt firm. There was no representative of the majority
of the common shareholders that represented more than

App.ll4a

70% of the shareholding in clear contravention with
the organizational documents of the company and the
governance that was negotiated at the time of the
Series D. The corrupt members of the compensation
committee wanted to dramatically hurt Mr. Buhannic
in his pay and unilaterally change his contract with
no reason whatsoever. Even the compensation specialist
hired for justifying the review was outraged by the
proposals saying that they were “as far from the market”
as he had ever seen. When Mr. Buhannic disagreed
officially on the phone with the proposal, refused it
and contested its legality as the compensation committee
was just representing TCV a 18% shareholder only,
David pollack from Morgan Lewis who was the lawyer
of the company and the lawyer of Mr. Buhannic did
try in a following phone call with the same corrupt
people to state that in the previous organized phone
call Mr. Buhannic had accepted the proposals of the
committee! Mr. Buhannic indicated very clearly that
he had not, and Mr. Poliak insisted that he had accepted,
and that Mr. Buhannic just did not remember right!
Mr. Buhannic indicated at that moment that he had
taped all previous conversations as it was his right
being in Europe at the time and that he was also
recording this one and would be happy to replay them
to the committee. This forced the issue resolution and
it was therefore decided that a simple renewal of Mr.
Buhannic contract would happen instead of the
damaging changes that were proposed by the corrupt
Board members, TCV and Morgan Lewis. We would be
happy to play the two tapes for the court and they see
firsthand the duplicity of Morgan Lewis in the person
of David Pollack lying to its teeth about the statements
I accepted (in fact refused) in the pats meeting. Very
interesting.

App.ll5a

It was already a clear collusion between Morgan
Lewis, Piero Grandi and TCV to effectively attack Mr.
Buhannic personally for no reason and we were in
September 2015, a longtime before the fake engineered
incident. To come back on the discovery the Defendants
have hidden all the emails, WhatsApp and other
electronic communications that happened between them
to organize this renegotiation leaving just the innocuous
ones for show, A complete record should be achieved
by obtaining free access to all the personal emails of
Bob Trudeau, Piero Grandi and David Poliak that have
not been submitted despite being requested clearly.
6. In point 8 of the request it is the same routine.
Morgan Lewis has hidden all the “dangerous” commu­
nication that was exchanged and most certainly now
erased it making it a criminal case of destruction of
evidence. Particularly missing are all personal emails
that will demonstrate the collusion between the
defendant to create a fake incident as it happens. We
have already provided to the court in an exhibit of our
new discovery demand the undeniable proof that the
Defendants had created multiple groups in WhatsApp
but also used heavily their personal emails to organize
the fake incident. We have provided a copy of groups
that were purposely created by the rogue board
members to communicate with rogue employees they
had corrupted: TS1, TS4 etc. many of them each for a
purpose. Strangely none of these were supplied
despite a clear demand of all electronic communications.
The length of the discovery process has allowed the
defendants to erase most of it but there is clear
evidence they did so, and the Court should force them
in collecting this evidence again and un-erased as it is
possible in most of these systems. In the same line

App.ll6a

there is not one example of communication between
Bloomberg and the company or Bloomberg and the
company’s employees! Interesting. We know for a fact
that internal communications were sent to Bloomberg
by the company purposely as we will demonstrate when
we do the discovery at Bloomberg to attack Mr. Buhannic
unduly with the help of the worst competitor of the
company. A very nice approach and behavior! We also
know than Brian Nadzan that totally colluded with
the rogue Board members as he was demoted for total
incompetence in sales of the US region (he lost in one
year 50% of the business and recruited completely
useless sales guy like Mr. Muller the sales person
involved in the supposed incident who works now
at. . . Bloomberg as a reward) was the contact the
rogue Board members used with Bloomberg given his
strong link, they are neighbors and former colleagues
and take the train together. Strangely there is not a
single personal email or professional email about that.
A complete masquerade of a delivery in discovery. No
communication was given except a doctored set of emails
and none that would show the preparation of the attack
against Mr. Buhannic, or the orchestration of the
attack against Mr. Buhannic by corrupting the top
employees in his back (I have seen and had in hands
these emails proving the doctoring of the discovery
delivery). None of the electronic and personal emails
have been given and the Corrupt Morgan Lewis lawyer,
on top of creating fake evidence as proven in the past
and as we will show in trial, have clearly help manipulate
and destruct evidence in the case.
7. Point 9 is the same despite Mr. Buhannic having
seen the evidence no interviews of the top employees
and their manipulation documents have been supplied.

App.ll7a

8. Same in point 10 none of the electronic commu­
nication on personal emails leading to the selection of
Morgan Lewis that had already attacked Mr. Buhannic on his retirement and pay and was there for clearly
already colluding with the rogue Board members and
was therefore non-independent at all in clear contra­
vention to any governance rule of decent quality. A
stark contract when we caught Piero Grandi his pants
down having stolen money outright from the company
and the corrupt Board representing only 18% of the
shareholding refusing to create an independent investi­
gation committee, in clear contravention to governance,
here without legal authority a manipulated one was
created and took decisions and manipulated its way
into the result it wanted!
9. The reward for killing Mr. Buhannic profession­
ally was to take his positions as CEO and President
and his compensation as the two rogue Board members
were totally bankrupt and desperate for money for
personal reasons. All this was organized around an
illegal Board on June 10th and we did ask in the
discovery to have all the communications and particu­
larly from personal emails and electronic like WhatsApp.
Nothings or close has been communicated and the
same official communication have been supplied. All the
communications leading to this Board meeting have
been hidden as they show undeniably the collusion,
manipulation and organization of the coup.
10. It is the same for the manipulated supposed
witness statement for the people present at the supposed
incident meeting. They were effectively written by
Morgan Lewis lawyers with a clear mission to kill Mr.
Buhannic with no other intent but to create a case
against him. Non-content to be totally conflicted after

App.ll8a

their position and collusion on the retirement issue
and the contract renegotiation issue, they should have
automatically recused themselves due to these facts,
but for a few tens of thousands USD the lawyers of
Morgan Lewis would kill their mother, they manip­
ulated evidence to a fault. They wrote effectively EVERY
testimony despite being clear that the witness should
in any decent legal system. In the discovery we
requested all the documents that were used and their
different versions. We got nothing. All witnesses were
taped the first interview. We requested these tapes
and-never_got-them._We-have_the_undeniable_proof__
that Morgan Lewis tampered the statement of the
witnesses in multiple ways and created entire sentences
for instance glorifying Mr. Muller as a good employee
where he was a terrible employee, and we will show
that in trail in detail showing the various versions
that Morgan Lewis engineered and their incredible
level of corruption. However, The Defendants here
like for the rest have not supplied the various versions
and the tapes for all the witnesses even if we have
been able to gather some on our own by people
disgusted by the methods employed by Morgan Lewis.
11. The Defendants have not supplied any docu­
ments on the supposed acceptance, where in fact Mr.
Buhannic has staunchly refused the 3.33 USD offer for
his restricted sticks in numerous emails and commu­
nications, which will be provided to the court at trial,
that they are claiming.
12. The same is true for points 17 and 20 where
no documents, no emails, no electronic communication
to justify the illegal decision of granting stocks to the
new management by a compensation committee has been
supplied. There was a huge problem of governance and

App.ll9a

the minutes of this committee where only TCV parti­
cipated as the representative of the common share­
holders Mr. Buhannic was not invited and Piero
Grandi was clearly conflicted. No minutes explaining
the composition of the committee and its actions is
supplied in the format you would expect for the largest
allocation of restricted stocks ever.
13. Points 21, 23, 26 have not been supplied prop­
erly and a lot is missing.
14. In points 27 and 29 we reach the higher level
of manipulation. The Defendants started to negotiate
the stay and resolution of the legal action for the
redemption in Delaware a long time BEFORE Mr.
Buhannic being ousted unduly. We had requested all
documents, and this included personal emails as they
were not going through any other channels, any elec­
tronic communication, any information really linked to
this case as it proves that the Defendants have
engineered everything and had already a sweet deal
with TCV BEFORE the fake event was created by them.
The Defendants have supplied none of these at all!
After three letter to the judge in Delaware and I
believe three motion to just obtain our file which the
most basic right of a client of a lawyer (or what we
thought it was) we finally found the evidence that
proves (this was supplied to the Court in an exhibit)
that the Defendant had discussions and dealing with
TCV BEFORE the fake incident but they have supplied
none of these. Morgan Lewis as usual, corrupt to the
core, was clearly involved as mentioned in the emails
we have been able to get and should have obviously
declared itself incompetent on all matters as conflicted
and did not a real ethical and potentially criminal
question that we will pursue in due time. Further it is

App.l20a

a characterized hiding of evidence from the Court and
should be severely punished if there is still a logic left
in the system.
We had also requested as we have the proof that
some payments were made from TCV to Piero Grandi
starting in 2010 and Pierre Schroeder more recently.
None of these have been provided and we are asking
the Court to obtain the right to investigate the bank
statements of these two individuals from 2010 to today
for Piero Grandi and from 2015 to today for Pierre
Schroeder.
15. In the same line given that we were unable
to have a books and record procedure provide us as
Board members, as it is our right under many rules
and Sarbanes Oxley especially, to have the Travel and
Expenses reports of the two rogue Board members as
everybody has mentioned their lavish life style at the
expense of the company, anybody can see that in the
financial results as it is a stark contract with Mr.
Buhannic honest type of management, we were asked
by this Court to include our demand in our discovery
demand which we did. Until today or 14 months later
we have still to receive a single T&E reports as NONE
has been provided.
16. For all the other requests the discovery pro­
vided only the documents that Morgan Lewis considered
not risky and never provided any electronic communi­
cations despite the facts that it takes less than 15
minutes to get personal emails of WhatsApp or else
and that it is now possible to reactivate erased
messages in most cases with a specialist and the help
of the company running the system.

App.l21a

17. As a summary the Defendants have seriously
manipulated and tainted the discovery process that
was demanded by Kasowitz and has avoided almost
entirely to provide the information that is central to
the case as it will incriminate them badly and defin­
itively. Forging evidence, hiding evidence, and refusing
to provide evidence is a very serious offense and the
Court should act quickly to correct this situation. We
have given hard proof of many cases with electronic
communications not provided, communications between
the Defendants BEFORE the fake incident, etc., and
this constitute only the tip of the iceberg. Morgan
Lewis has engineered with its expensively paid corrupt
lawyer a deception scheme so vast that it shows how
desperate they are on the real fundamentals of the
case. This should push the Court to move swiftly in
authorizing our new discovery demands as they were
butchered by our former incompetent lawyers, by setting
a very tight schedule for the end of the discovery like
end first week of May for the case to progress, finally.
All the requested new items are electronic, easy to
obtain and gather and take no time to produce despite
the denegation of Morgan Lewis who are paid for these,
but the Court should see through that. The Court should
also force the delivery of all the missing items that
were requested for 14 months and immediately.
18. Given the manipulation of evidence demons­
trated in this document and other acts of the Defendants
we are also requesting the Court to nominate to finish
the discovery an independent agent to proceed to
obtain all the documents hidden, destroyed and not
supplied by the defendants and that this agent will
work with the short deadline given by the Court to
finish the discovery.

App.l22a

19. The Court given the graveness of the acts of
Morgan Lewis and the Defendants in hiding and
destroying evidence like electronic messages should
declare the Defendants and their lawyers in contempt
and take the appropriate sanctions with the very
damaging, unethical and manipulative behavior they
have demonstrated.
20. CONCLUSION
In conclusion, Plaintiff respectfully requests that
this Court Grant Plaintiffs’ reliefs presented in the
order to show cause in the order for the case to be
resolved finally, fully and fairly, in a rapid manner, based
on a discovery that is valid and in line with the law as
well as any other relief as may be just and proper
manner that, for once, will respect basic fairness and
logic and will not grant an undue advantage to the
side with the most resources.
Philippe Buhannic
Dated: April 23, 2018
New York, NY

